Use of the Current Guidance on
Economic Analysis in SEC
Rulemakings




                             June 6, 2013
                             Report No. 518
We appreciate the courtesy and cooperation that you and your staff extended to
our contractors during this evaluation.

Attachment

cc:   Erica Y. Williams, Deputy Chief of Staff, Office of the Chair
      Elisse B. Walter, Commissioner
      Luis A. Aguilar, Commissioner
      Troy A. Paredes, Commissioner
      Daniel M. Gallagher, Commissioner
      Anne K. Small, General Counsel, Office of the General Counsel
      Craig Lewis, Director and Chief Economist, Division of Risk,
       Strategy, and Financial Innovation
      John Ramsay, Acting Director, Division of Trading and Markets
      Lona Nallengara, Acting Director, Division of Corporation Finance
      Norman Champ, Director, Division of Investment Management
      Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
      Lacey M. Dingman, Director, Office of Human Resources
      Michael A. Conley, Deputy General Counsel, Office of the General
       Counsel
      Kathleen Hanley, Deputy Director and Deputy Chief Economist, Division of
       Risk, Strategy and Financial Innovation
      Jennifer Marietta-Westberg, Deputy Director and Deputy Chief Economist,
        Division of Risk, Strategy and Financial Innovation
      James R. Burns, Deputy Director, Division of Trading and Markets
      Paula Dubberly, Deputy Director, Office of Policy and Capital Markets,
       Division of Corporation Finance
      Douglas Scheidt, Chief Counsel, Division of Investment Management
   Use of the Current Guidance on Economic
         Analysis in SEC Rulemakings

                           Executive Summary
Background. On March 16, 2012, the Office of the General Counsel and the
Division of Risk, Strategy, and Financial Innovation (RSFI) sent by email, to SEC
rulewriting divisions and offices, the Current Guidance on Economic Analysis in
SEC Rulemakings (Current Guidance). The Current Guidance states that “[h]igh-
quality economic analysis is an essential part of SEC rulemaking.” The Current
Guidance provides four “[s]ubstantive requirements for economic analysis,” as
well as “[e]nhanced integration of economic analysis into the rulemaking process
and rule releases.” The purpose of the Current Guidance is to help rulewriting
divisions and offices and RSFI improve and achieve consistency in their
economic analyses for rulemakings and better enable the Commission’s rules to
withstand judicial scrutiny. The Current Guidance states that a high-quality
economic analysis “ensures that decisions to propose and adopt rules are
informed by the best available information about a rule’s likely economic
consequences….” The Current Guidance explains that a rule’s potential benefits
and costs “…should be considered in making a reasoned determination that
adopting a rule is in the public interest.”

Congressional Request. On July 24, 2012, the U.S. Securities and Exchange
Commission’s (SEC or Commission) Office of Inspector General (OIG) received
a letter from the Chairman of the U.S. House of Representatives Committee on
Oversight and Government Reform (House Oversight Committee) and the
Chairman of the U.S. House of Representative’s Subcommittee on TARP
(Troubled Assets Relief Program), Financial Services and Bailouts of Public and
Private Programs (Subcommittee on TARP) requesting that the OIG evaluate the
SEC’s implementation of the Current Guidance. The letter requested that we
report on the degree to which the economic analyses supporting proposed and
final Commission rules follow the principles and policies of the Current Guidance.
The OIG was also asked to assess the degree to which the SEC has ensured
that the principles and policies of the Current Guidance are incorporated into the
economic analyses of rulemakings of the Financial Industry Regulatory Authority
(FINRA), other self-regulatory organizations (SROs) under the Commission's
jurisdiction, and the Public Company Accounting Oversight Board (PCAOB).

Objectives. This evaluation determined whether:

   •   the economic analyses in recent SEC rulemakings complied with the
       principles and policies of the Current Guidance;

Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                         Page i
   •   the SEC ensured that the FINRA, other SROs and the PCAOB followed
       the Current Guidance;

   •   the Current Guidance has been effective;

   •   a consistent methodology for economic analysis is used across
       rulemaking divisions and offices; and

   •   further improvements are needed for the SEC’s rulemaking processes and
       procedures.

Results. We found that the SEC rules in our sample followed the spirit and
intent of the Current Guidance. All of the rules that we evaluated specified the
justification for the rule, considered alternatives, and integrated the economic
analysis into the rulemaking process. We determined that the SEC’s use of the
Current Guidance has been effective in incorporating economic analysis into the
rulemaking process. Further, we found no notable differences in economic
methodologies in support of rulemakings across rulemaking divisions.

However, some rules could have better clarified and specified the baselines in
the economic analysis section; the current conditions were often presented
separately from the economic analysis in the rule releases. This is a matter of
presentation. Also, some descriptions of baseline conditions did not specifically
address the state of efficiency, competition, and capital formation (ECCF). In
addition, we found that only 1 of the 12 rules in our sample included a
quantification of benefits of the regulatory action. Where the rulewriting team
determined that the quantification of certain costs or benefits was not practicable,
the reasons for that determination were not always fully documented in the
release text. We also found that FINRA, other SROs, and PCAOB are not
required to follow the SEC’s Current Guidance in their rulemakings.

Summary of Recommendations. This report contains six recommendations
that we believe if implemented will improve the SEC’s application of the
requirements in the Current Guidance. For example, we recommend that, in
consultation with the rulemaking divisions and offices, RSFI develop a general
outline for economic analysis sections in rule releases. We also recommend that
RSFI consider whether to create a management control, such as a guide, to
achieve greater consistency in presentation of economic analyses.

Management’s Response to the Report’s Recommendations. The OIG
provided RSFI and OGC with the formal draft report on May 24, 2013. RSFI and
OGC concurred with the recommendations addressed to them. The OIG
considers the report recommendations resolved. However, the
recommendations will remain open until documentation showing the
recommendations have been fully implemented is provided to the OIG. RSFI

Use of the Current Guidance on Economic Analysis in SEC Rulemakings      June 6, 2013
Report No. 518
                                         Page ii
and OGC’s response to the recommendations and the OIG’s analysis of the
responses is presented after the recommendations in the body of this report.
OIG’s response to RSFI and OGC’s overall comments to the report is included in
Appendix IX.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                        Page iii
TABLE OF CONTENTS
Executive Summary .................................................................................................. i

Table of Contents ................................................................................................... iv

Background and Objectives ............................................................................1
     Background ..................................................................................................1
     Objectives .....................................................................................................8

Findings and Recommendations .................................................................10
     Finding 1: Overall, the SEC Has Followed the Current Guidance in its
     Rulemakings, but Could Improve the Application of Some Requirements ..10
        Recommendation 1 ................................................................................23
        Recommendation 2 ................................................................................24

         Finding 2: FINRA, other SROs, and the PCAOB Are Not Required to
         Follow the SEC’s Current Guidance in their Rulemaking Efforts .................24

         Finding 3: The SEC’s Use of the Current Guidance Has Been Effective in
         Incorporating Economic Analysis in the Rulemaking Process, but
         Improvements are Needed in Presenting Economic Analysis .....................28
            Recommendation 3 ................................................................................32

         Finding 4: Rulemaking Methodologies Across the SEC Demonstrate
         Consistency.................................................................................................32

         Finding 5: The SEC Could Benefit From Exploring Alternate Estimation
         Methodologies and Practices Used by Other Federal Administrative
         Agencies .....................................................................................................33
            Recommendation 4 ................................................................................37
            Recommendation 5 ................................................................................37
            Recommendation 6 ................................................................................38

Appendices
    Appendix I: Abbreviations...........................................................................39
    Appendix II: Scope and Methodology .........................................................40
    Appendix III: Criteria ...................................................................................46
    Appendix IV: List of Recommendations .....................................................48
    Appendix V: Requirements of the Current Guidance .................................50
    Appendix VI: Substantive Rules Examined ................................................54
    Appendix VII: Requirements, Components, and Current Guidance
    Reference....................................................................................................55
    Appendix VIII: Management Comments .....................................................57
    Appendix IX: OIG’s Response to Management Comments........................62
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                                   June 6, 2013
Report No. 518
                                                     Page iv
Tables
     Table 1: The Current Guidance’s Substantive and Process
     Requirements ................................................................................................5
     Table 2: Listing of Rules Analyzed for Evidence Outside of Public
     Rulemaking Documents ..............................................................................44
     Table 3: SEC Rules HDR Identified in Its Sample for Substantive
     Review ........................................................................................................54
     Table 4: Requirements and Components ...................................................55




Use of the Current Guidance on Economic Analysis in SEC Rulemakings                                 June 6, 2013
Report No. 518
                                                    Page v
                   Background and Objectives

Background
Congressional Request

On July 24, 2012, the U.S. Securities and Exchange Commission’s (SEC or
Commission) Office of Inspector General (OIG) received a letter from the
Chairman of the U.S. House of Representatives Committee on Oversight and
Government Reform (House Oversight Committee) and the Chairman of the U.S.
House of Representative’s Subcommittee on TARP (Troubled Assets Relief
Program), Financial Services and Bailouts of Public and Private Programs
(Subcommittee on TARP) requesting that the OIG evaluate the SEC’s
implementation of the Current Guidance on Economic Analysis in SEC
Rulemakings (Current Guidance), which was issued on March 16, 2012. The
letter requested that we assess and report on the degree to which the SEC has
incorporated the principles and policies of the Current Guidance into economic
analyses supporting proposed and final Commission rules. The OIG was also
asked to assess the degree to which the SEC has ensured that the principles
and policies of the Current Guidance are incorporated into the economic
analyses of rulemakings of the Financial Industry Regulatory Authority (FINRA),
other self-regulatory organizations (SROs) under the Commission's jurisdiction,
and the Public Company Accounting Oversight Board (PCAOB).

Interim Inspector General’s Response

On December 21, 2012, the Interim Inspector General sent letters to the
Chairman of the House Oversight Committee and the Chairman of the
Subcommittee on TARP outlining the OIG’s approach for responding to their
request. The OIG’s letters 1 stated that it would:

        •   conduct an “audit to confirm that procedures have been
            established and are being used in accordance with the Current
            Guidance and that the Current Guidance incorporates
            recommendations offered by others on rulemaking [Phase 1];”
            and




1
 Jon T. Rymer, Interim SEC Inspector General, letters to Darrell Issa, Chairman, House Committee on
Oversight and Government Reform, December 21, 2012, and to Patrick McHenry, Chairman, House
Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs, December 21,
2012.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                      June 6, 2013
Report No. 518
                                              Page 1
         •    direct “an experienced contractor with expertise in economic
              analysis, the securities industry, and SEC operations to perform
              more extensive rulemaking analyses [Phase 2].” 2

In response to the Congressional request, the OIG contracted the services of
HDR Engineering, Inc. (HDR) to evaluate the effectiveness and use of the
Current Guidance in the SEC’s rulemaking practices and procedures. This
report covers Phase 2 of the OIG’s response to the Congressional request.

Former Chairman Mary Schapiro’s Testimony on the Current Guidance

On April 17, 2012, and again on June 28, 2012, then SEC Chairman Mary
Schapiro testified before the Subcommittee on TARP about economic analysis in
SEC rulemakings and the SEC’s Current Guidance. 3 In her testimony on April
17, 2012, Chairman Schapiro noted that although the SEC (as an independent
regulatory agency) is not subject to the rulemaking 4 requirements of Executive
Orders (E.O.) 12866 5 and 13563 6 and Office of Management and Budget (OMB)
Circular A-4, 7 the SEC had recently released its Current Guidance that “draws
upon principles set forth in OMB Circular A-4 and Executive Orders 12866 and
13563.” In her testimony on June 28, 2012, Chairman Schapiro stated that she
had “...explicitly directed the rulemaking Divisions and Offices that they are to
follow this Guidance” 8 and that the SEC’s Chief Economist and the Office of the
General Counsel (OGC) had indicated that "...the Guidance is in fact being
2
 See OIG Report No. 516, Implementation of the Current Guidance on Economic Analysis in SEC
Rulemakings.
3
 Mary L. Schapiro, Chairman, U.S. Securities and Exchange Commission, Statement to the U.S. House of
Representatives Subcommittee on TARP, Financial Services and Bailouts of Public and Private Programs
Oversight and Government Reform Committee, Economic Analysis in SEC Rulemaking, Hearing April 17,
2012. Mary L. Schapiro, Chairman, U.S. Securities and Exchange Commission, Statement to the U.S.
House of Representatives Subcommittee on TARP, Financial Services and Bailouts of Public and Private
Programs Oversight and Government Reform Committee, JOBS Act in Action Part II: Overseeing Effective
Implementation of the JOBS Act at the SEC, Hearing June 28, 2012.
4
  “Rulemaking” is defined in this report as the process for developing rule language. In this report, “release
text” refers to the published text implementing the regulatory action.
5
 See E.O. 12866, Regulatory Planning and Review, issued September 30, 1993, 58 FR 51735 (Oct. 4,
1993).
6
  See E.O. 13563, Improving Regulation and Regulatory Review, issued January 11, 2011, 76 FR 3821
(Jan. 21, 2011).
7
 See OMB Circular A-4, Regulatory Analysis, issued September 17, 2003. Also, Schapiro, Statement to the
U.S. House of Representatives Subcommittee on TARP, Financial Services and Bailouts of Public and
Private Programs Oversight and Government Reform Committee, April 17, 2012.
8
  Rulemaking divisions and offices are all SEC divisions and offices that initiate rulemaking activities. During
the evaluation’s scope (March 16, 2012, through November 30, 2012), rulemaking divisions that developed
recommendations for rules released by the Commission included the Division of Corporation Finance,
Division of Trading and Markets, and Division of Investment Management. These divisions were supported
by the Division of Risk, Strategy, and Financial Innovation and the Office of the General Counsel.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                              June 6, 2013
Report No. 518
                                                   Page 2
followed for both the rule recommendations already in process, as well as those
at the earliest stages of development.” 9

Overview of the Current Guidance

On March 16, 2012, OGC and the Division of Risk, Strategy, and Financial
Innovation (RSFI) sent the Current Guidance by email to the staff of the SEC
rulewriting divisions and offices. 10 The Current Guidance provides requirements
for producing high-quality economic analysis in SEC rulemakings. It will help
rulewriting divisions and offices and RSFI improve and achieve consistency in
their economic analyses for rulemakings and help the Commission’s rules
withstand judicial scrutiny. 11

Specifically, the Current Guidance states:

             High-quality economic analysis is an essential part of the SEC
             rulemaking. It ensures that decisions to propose and adopt rules
             are informed by the best available information about a rule’s likely
             economic consequences, and allows the Commission to
             meaningfully compare the proposed action with reasonable
             alternatives, including the alternative of not adopting a rule. The
             Commission has long recognized that a rule’s potential benefits and
             costs should be considered in making a reasoned determination
             that adopting a rule is in the public interest. 12

The Current Guidance has four “[s]ubstantive requirements for economic
analysis” as well as “[e]nhanced integration of economic analysis into the
rulemaking process and rule releases.”13 The Current Guidance references
recent court decisions, reports of the SEC OIG and the U.S. Government
Accountability Office (GAO), and Congressional inquiries that have raised
questions about or recommended improvements (or both) to various components
of the Commission’s economic analysis in rulemaking.

The Current Guidance notes that while the SEC is not required to follow
Executive Orders 12866 and 13563, and the Office of Management and Budget’s
Circular A-4, “the following guidance draws on principles set forth in those orders

9
 Schapiro, Statement to the U.S. House of Representatives Subcommittee on TARP, Financial Services
and Bailouts of Public and Private Programs Oversight and Government Reform Committee, June 28, 2012.
10
 The Current Guidance is available on the SEC’s website. See Appendix V for a discussion of the Current
Guidance.
11
     Current Guidance, pgs. 1-2.
12
     Id., p. 1.
13
     Id., pgs. 4, 15.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                       June 6, 2013
Report No. 518
                                               Page 3
and in the Office of Management and Budget’s Circular A-4 (2003), which
provides guidance for implementing Executive Order 12866.”14

The SEC’s Chief Economist noted in a speech that the Current Guidance lays
out basic elements of a robust economic analysis and that he “believe[s] that the
Guidance reflects a common-sense approach to being thoughtful and transparent
about economic analysis, including the potential impacts and trade-offs of the
regulatory decisions that the Commission is making.” 15

The Current Guidance has substantive requirements in Section A and a process
requirement in Section B.

Section A covers four substantive requirements for economic analysis in SEC
rulemaking. The requirements are designed to encourage a robust economic
analysis. The requirements for preparing an economic analysis are:

       1) clearly identify the justification for the proposed rule;

       2) define the baseline against which to measure the proposed rule’s
          economic impact;

       3) identify and discuss reasonable alternatives to the proposed rule;
          and

       4) analyze the economic consequences of the proposed rule and the
          principal regulatory alternatives.

Section B covers the process requirement for “enhanced integration of economic
analysis into the rulemaking process and rule releases.”16 See Appendix V for
an overview of the requirements in the Current Guidance.

Table 1 below summarizes the Current Guidance’s substantive requirements and
the process requirement.




14
     Id., p. 4.
15
  Craig Lewis, “The Expanded Role of Economists in SEC Rulemaking,” remarks made at the Securities
Industry and Financial Markets Association Compliance and Legal Society Luncheon, October 16, 2012.
16
     Current Guidance, p. 15.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                      June 6, 2013
Report No. 518
                                              Page 4
Table 1: The Current Guidance’s Substantive and Process Requirements
     Requirement Title and
                                                 Summary of Required Information
           Number
 Substantive Requirements (Section A)
 1. There is a “clearly identified  “Rule releases must include a discussion of the need for
    justification for the proposed  regulatory action and how the proposed rule will meet that
    rule.” (p. 5)                   need. In some circumstances, there will be more than one
                                    justification for a particular rulemaking.” (p. 5)
 2. There is a defined baseline     “The economic consequences of proposed rules (potential
    “against which to measure the   costs and benefits including effects on efficiency, competition,
    proposed rule’s economic        and capital formation) should be measured against a baseline,
    impact.” (p. 6)                 which is the best assessment of how the world would look in
                                    the absence of the proposed action . . .[an economic analysis]
                                    compares the current state of the world, including the problem
                                    that the rule is designed to address, to the expected state of
                                    the world with the proposed regulation (or regulatory
                                    alternatives) in effect.” (p. 6)
 3. There are “reasonable           “The release should identify and discuss reasonable potential
    alternatives to the proposed    alternatives to the approach in the proposed rule. Reasonable
    rule” which are identified and  alternatives include only those that are available to the SEC
    discussed. (p. 8)               and not for example, those that the SEC lacks the authority to
                                    implement.” (p. 8)
 4. There is an analysis of the     “In analyzing the likely consequences of the proposed rule and
    “economic consequences of       alternative regulatory approaches, rulewriting staff should
    the proposed rule and the       work with the RSFI economists to: (1) identify and describe
    principal regulatory            the most likely economic benefits and costs of the proposed
    alternatives.” (p. 9)           rule and alternatives; (2) quantify those expected benefits and
                                    costs to the extent possible; (3) for those elements of benefits
                                    and costs that are quantified, identify the source or method of
                                    quantification and discuss any uncertainties underlying the
                                    estimates; and (4) for those elements that are not quantified,
                                    explain why they cannot be quantified.” (pgs. 9-10)
 Process Requirement (Section B)
 5. Economic Analysis is            “To make the best use of RSFI’s expertise, RSFI economists
    integrated “into the rulemaking should be involved at the earliest stages of the rulemaking
    process and the rule releases.” process (e.g., before the specific preferred regulatory course
    (p. 15)                         is determined) and throughout the course of writing proposed
                                    and final rules. RSFI economists should be fully integrated
                                    members of the rulewriting team and contribute to all elements
                                    of the rulewriting process.” (p. 15)
Source: HDR Generated from the Current Guidance

As discussed above, the Current Guidance specifies certain requirements for
economic analysis in rulemaking, yet it also acknowledges the need for flexibility.
Specifically, the Current Guidance states:

        Rulewriting teams should recognize that this guidance is by
        necessity general in nature. This guidance—while broadly outlining
        best practices—is intended to allow for flexibility in the context of
        any particular rulemaking. The rulewriting division or office, RSFI,
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                June 6, 2013
Report No. 518
                                           Page 5
             and OGC should work closely to determine the appropriate
             approach for each rulemaking. 17

Methodology for Evaluating the Requirements. The Current Guidance
specifies five “requirements.” Each requirement is expressed as a single
sentence. To understand how the Current Guidance defines the meaning of
those requirements, we assessed the explanation of each requirement in the
Current Guidance. We then divided those explanations into discrete
components. A “component” is not a term defined or used in the Current
Guidance; 18 we developed the concept of a component solely to facilitate our
evaluation.

For example, under requirement 1, “Clearly identify the justification for the
proposed rule,” the Current Guidance states:

             Rule releases must include a discussion of the need for regulatory
             action and how the proposed rule will meet that need. In some
             circumstances, there will be more than one justification for a
             particular rulemaking. Frequently, the proposed rule will be a
             response to a market failure that market participants cannot solve
             because of collective action problems. Traditional market failures
             include market power, externalities, principal-agent problems (such
             as economic conflicts of interest), and asymmetric information.
             Other justifications for rulemaking can include among others,
             “improving government processes,” interpreting provisions in
             statutes the Commission administers, and providing exemptive
             relief from statutory prohibitions where the Commission concludes
             that doing so is in the public interest. Additionally, Circular A-4
             recognizes that Congressional direction to adopt a rule is, itself, an
             independent justification for rulemaking, explaining that “[i]f the
             regulatory intervention results from a statutory or judicial directive,
             you should describe the specific authority for your action, the extent
             of discretion available to you, and the regulatory instruments you
             might use.” [footnotes removed]

We assessed that requirement and defined two components.

            •     Rule releases must include a discussion of the need for
                  regulatory action and how the proposed rule will meet that need.




17
     Id., p. 2.
18
  The Current Guidance describes each requirement with discussions of methods and procedures. The
“components” are drawn from these discussions in the Current Guidance under each requirement.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                    June 6, 2013
Report No. 518
                                              Page 6
            •    Where the justification cited for the rule is a statutory directive,
                 the release text includes a discussion of any justification for
                 regulatory action that is cited by Congress. 19

We based our definitions of components on whether 1) a discussion point in the
Current Guidance constituted an action the SEC could, should, or might take; 2)
it was a discrete point distinct from other defined components; and 3) it added
clarity to the meaning of the relevant requirement. We drew the components
primarily from the text of each requirement section, but in some cases we
extracted them from footnote text.

Further, we assessed the rules from our sample, as discussed below, to
determine the extent to which they followed the Current Guidance’s requirements
as defined by the components.

Our evaluation did not seek to assess SEC staff’s professional judgment in the
rulemakings reviewed in this report. Instead, we based our evaluation on our
observations noted during our review, consistent with our methodological
approach and the objectives of this report. Specifically, we assessed the
presence or lack of, certain required or recommended components in the release
texts and, in the case of rules selected for indepth review, supporting documents.

Scope of Substantive Rules. Between March 16, 2012, and November 30,
2012, the Commission proposed or adopted 23 rules. To determine the set of
rules to evaluate, we reviewed each rule for purpose and excluded ten rules from
our review because they were “interpretative rules, general statements of policy,
or rules of agency organization, procedure, or practice,” 20 or included an
agency’s affirmative finding that “notice and public procedure thereon are
impracticable, unnecessary, or contrary to the public interest,”21 and thus are
exempt from the rulemaking requirements specified in the Administrative
Procedure Act. 22 Those rules reopened comment periods, corrected
typographical errors, extended compliance dates, were interim final temporary

19
   We view this component of requirement 1 differently from other components; it does not use words such
as “should” or “must,” which would indicate a mandatory requirement. Therefore, we view this component
as a “recommended” part of requirement 1. Footnote 19 of the Current Guidance notes: “Although we
conclude that the Commission is not obligated to identify a justification for rulemaking beyond a
Congressional mandate, there may be circumstances in which it could be useful to do so. For example,
where Congress has itself stated that the mandate to engage in rulemaking is premised on a market failure
or other compelling social need, the rulemaking release may identify that justification (and attribute it to
Congress) in its description of the statutory mandate and explain how the rule (including any discretionary
choices the Commission is making in the rulemaking) responds to the market failure or other compelling
need that Congress identified.” Current Guidance at p. 6.
20
     Administrative Procedure Act (5 U.S.C. Subchapter II) § 553(b)(A).
21
     Id., § 553(b)(B).
22
     Id., § 553(b).
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                           June 6, 2013
Report No. 518
                                                   Page 7
rules, or adopted updates to the Electronic Data Gathering, Analysis, and
Retrieval (EDGAR) filer manual.

Also, the SEC published, on March 30, 2012, one substantive rule (Release No.
33-9308) that was already before the Commission by the time the Current
Guidance was released. That rule is technically within the scope of this
evaluation; however, the timing of the release indicates that the staff did not have
the benefit of the Current Guidance at the time they prepared the
recommendation. Therefore, we have excluded this rule from the scope of our
evaluation.

We examined 12 of the 23 rules published during the period of our review. 23
These 12 rules consisted of nine adopting and three proposing releases. See
Appendix VI, Table 3, for a complete list of the rules in the sample that we
examined. In examining these rules, we applied the Current Guidance’s five
requirements that are outlined in Appendix V. Further, we assessed the rules
against the 20 components that are contained in the discussions of the Current
Guidance’s five requirements. 24

Rules Selected for Indepth Review to Evaluate Process Requirements. We
developed a sample of 7 of the 12 rules to further evaluate the components of
the requirements for RSFI’s involvement in the rulemaking process. This
required our review of nonpublic documents. 25 Evaluation of these rules included
examination of supporting documentation other than the release text, such as
term sheets, 26 other memoranda, draft analyses, meeting notes and minutes,
and other correspondence. See Table 2 in Appendix II for a list of the rules that
we selected for the indepth evaluation.

Objectives
HDR’s objectives were to determine whether:

       1) Economic analyses in recent proposed and final rulemakings followed the
          principles and policies identified in the Current Guidance. Specifically, we
          looked at whether rulemakings published from March 16, 2012, to
          November 30, 2012:

23
     See Table 3 in Appendix VI for a listing of the 12 rules reviewed.
24
 See Table 4 in Appendix VII for a list of the components, including direct language from the Current
Guidance.
25
     Selection was made by judgment, based on the criteria described in Appendix II.
26
  Term sheets are an internal SEC communication mechanism for stating the conceptual terms of the
proposed or final rule to rulemaking staff, other SEC staff, and the SEC Commissioners for their review and
comment.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                          June 6, 2013
Report No. 518
                                                     Page 8
            •      followed the four “[s]ubstantive requirements for economic analysis in
                   SEC rulemaking” 27 per the Current Guidance; and

            •      followed the process and procedures for “[e]nhanced integration of
                   economic analysis into the rulemaking process and rule releases” 28 in
                   the Current Guidance.

       2) The Commission ensured that the Current Guidance was followed by the
          Public Company Accounting Oversight Board, Financial Industry Regulatory
          Authority, and other SROs under the Commission’s jurisdiction;

       3) The Current Guidance has been effective;

       4) The SEC rulemaking divisions and offices used a consistent methodology
          for economic analysis; and

       5) Further improvements are needed for the SEC’s rulemaking processes
          and procedures.




27
     Current Guidance, p. 4.
28
     Id., p. 15.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings             June 6, 2013
Report No. 518
                                              Page 9
                 Findings and Recommendations


Finding 1: Overall, the SEC Has Followed the
Current Guidance in its Rulemakings, but Could
Improve the Application of Some Requirements
           Overall, SEC rulemakings followed the Current Guidance.
           However, for some rules that we reviewed, the SEC could
           have better clarified and specified the baselines for analysis
           in the manner described in the Current Guidance. In
           addition, not all rules adequately presented a justification for
           not quantifying certain costs and benefits.

Overview
Our review found that the SEC rules in our sample followed the spirit and intent
of the Current Guidance. All the rules fully addressed three of the five
requirements–the rules specified the justification for the rule, considered
alternatives, and integrated the economic analysis into the rulemaking process.
However, some rules did not clearly specify and discuss baselines in the
economic analysis section; the current conditions were often presented
separately from the economic analysis in the rule releases. This is primarily an
issue of presentation. Also, some baselines did not completely address the state
of efficiency, competition, and capital formation (ECCF) as it exists in the
baseline state. In addition, we noted that only 1 of the 12 rules in our sample
included a quantification of benefits.

We assessed the 12 rules in our sample against requirements 1-4. To assess
requirement 5, we had to review nonpublic documentation and, therefore, relied
on a sub-sample of 7 of the 12 rules to complete a more indepth review to
assess that requirement.

Results of Review of Application of the Current Guidance 29

Requirement 1 - Rule Justification. All of the rules we examined fully followed
this requirement. We found that the 12 rules in our sample followed the
requirement that there be “a clearly identified justification for the proposed rule.” 30

29
  Our determination whether a rule followed the Current Guidance was made based on review of each rule
and the requirements and components specified in Appendix VII.
30
     Current Guidance, p. 5.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                      June 6, 2013
Report No. 518
                                              Page 10
Specifically, we found each rule provided a clear justification for the proposed
rule.

Requirement 2 - Specification of the Baseline. All of the rules we examined
either fully or partially followed this requirement. Two rules (Release Nos. 34-
68071 and IA-3483) had clear, well-defined baselines. These two releases
described the economic consequences of the rules against a single baseline that
1) includes any assumptions and underlying uncertainty, 2) describes the state of
ECCF in the baseline, and 3) identifies and describes the markets and
participants that would be affected by the proposed rule presented at the
beginning of the economic discussion. Ten of the 12 rules in our sample
discussed the baseline in the release text, but did not include all of the
components for specification of the baseline. 31

To assess whether each of the 12 rules followed Requirement 2, we looked at
three components of that requirement that are in the Current Guidance. Those
three components are:

       2.1 “The economic consequences of proposed rules...should be
       measured against a baseline, which is the best assessment of how the
       world would look in the absence of the proposed action…including the
       existing state of efficiency, competition, and capital formation, against
       which to measure...;”32

       2.2 “The baseline being used should be specified either at the
       beginning of the economic analysis section or as part of a general
       introduction to the economic issues that will be considered throughout
       the release and should clearly describe the assumptions that underlie
       the descriptions of the relevant baseline and detail those aspects of the
       baseline specification that are uncertain;” 33 and

       2.3 “...Rulewriting staff should work with the RSFI economists to
       describe the state of the world in the absence of the proposed rule.”

We found that 10 rules followed some, but not all, of those three components and
so only partially followed all components of the requirement. Specifically, we
found that:

       •     nine of the 12 rules did not include a specific discussion of the
             existing state of ECCF in the release text. Three of the rules did
             include a specific discussion of the existing state of ECCF:
31
     See Appendix V and VII for greater detail on the components of Requirement 2.
32
     Current Guidance, pgs. 6-7.
33
     Id., p. 7.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                  June 6, 2013
Report No. 518
                                                 Page 11
           Release Nos. IA-3483, 34-67457 and 34-68071. (This does not
           refer to whether or not the releases addressed the impact of the
           rules on ECCF.); and

       •   five of the 12 rules partially followed component 2.2, because the
           release texts had an implied baseline of the current state of the
           world. However, these baselines were not presented in a clear and
           explicit manner.

Overall, most of the rules that we reviewed followed the requirement that the
baseline should be described in the release text at the beginning of the economic
analysis section, or as part of a general introduction to the economic issues that
are considered throughout the release.

The sample of seven rules that we evaluated in greater depth all followed
component 2.3. We did not assess the remaining five rules for this component,
but we have no reason to believe that they did not follow this component.

The rulewriting teams and economists that we interviewed said they interpreted
their presentation of the baseline in the rules as following the Current Guidance’s
requirements. 34 Many of those we interviewed said that rules that did not follow
all components of a requirement should still be considered as having “followed”
that requirement because the Current Guidance generally allows for flexibility. 35

While we acknowledge the inherent flexibility of the Current Guidance, we
determined that following the requirement means following all the components of
that requirement. We also determined that the Current Guidance’s requirements
on the presentation of the baseline and incorporation of uncertainty and ECCF
are not clear.

Fully specified baselines could help to avoid confusion among the general public
or make it easier for interested readers to fully understand the starting point of
the economic analyses that the SEC uses in its rulemakings.

Requirement 3 - Consideration of Alternatives. All rules that we examined
fully followed this requirement. We found that all of the 12 rules in our sample
fully followed requirement 3 that “[t]he release should identify and discuss
reasonable potential alternatives to the approach in the proposed rule.” 36

34
     For a summary of rules included in the process evaluation, see Appendix II.
35
   On page 2, the Current Guidance states, “Rulewriting teams should recognize that this [G]uidance is by
necessity general in nature. This guidance—while broadly outlining best practices—is intended to allow for
flexibility in the context of any particular rulemaking. The rulewriting division or office, RSFI, and OGC should
work closely to determine the appropriate approach for each rulemaking.”
36
     Current Guidance, p. 8. This is the basis of component 3.1.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                              June 6, 2013
Report No. 518
                                                   Page 12
In addition, the Current Guidance requires that “proposing release[s] should also
solicit public comment to help assess and inform the economic analysis of the
alternatives.” 37 All three of the proposing releases—Release Nos. IA-3483, 33-
9354, and 34-68071—followed the requirement. 38 This component of the
requirement did not apply to nine of the rules in our sample because they are
adopting releases.

Requirement 4 - Analysis of Economic Consequences. All of the rules that
we examined either fully or partially followed the requirement that the economic
analysis include “the economic consequences of the proposed rule and the
principal regulatory alternatives.”39 Five of the 12 rules that we reviewed–
Release Nos. 34-68071, 34-68080, 34-67716, 34-67717, and 34-66868–followed
all components for requirement 4; and 7 rules followed some of the components
of requirement 4.

Requirement 4 consists of the following components:

       4.1         “rulewriting staff should work with the RSFI economists” 40 to
                   develop the economic analysis.

       The economic analysis should:

       4.2         “identify and describe the most likely economic benefits and
                   costs of the proposed rule and alternatives;” 41

       4.3         “quantify those expected benefits and costs to the extent
                   possible;”42

       4.4         “describe the measurement approach used, include references
                   to statistical and stakeholder data if available, and specify the
                   timeframe analyzed;” 43

       4.5         “identify and discuss uncertainties underlying the estimates of
                   benefits and costs;”44

37
   This is the basis for component 3.2. This component of the Current Guidance applies only to proposing
releases.
38
     Current Guidance, p. 9.
39
     Id.
40
     Id.
41
     Id.
42
     Id.
43
     Id., p. 13.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                         June 6, 2013
Report No. 518
                                               Page 13
       4.6         “include [in the release] an explanation of the reason(s) why
                   quantification is not practicable and include a qualitative analysis
                   of the likely economic consequences...” 45 if RSFI economists and
                   rulewriting staff conclude costs and benefits cannot reasonably
                   be quantified;

       4.7         “support predictive judgments and clearly address contrary data
                   or predictions [and];” 46

       4.8         “combine the economic analysis considering costs and benefits
                   with consideration of the effects on efficiency, competition, and
                   capital formation” in the rule release. 47

The Current Guidance explicitly provides flexibility to the Commission in
determining whether a rule’s economic effects can be reasonably quantified. The
Current Guidance states:

             To achieve this objective, rulewriting staff should engage with RSFI
             economists at the earliest stages of rulemaking to determine
             whether there are areas in which monetization or other
             quantification can reasonably be undertaken and, if so, whether
             RSFI has the available resources necessary to develop such data.
             Before issuing a proposing release, staff should identify any
             specific data that would be necessary for or that would assist in
             quantification, and should consider various mechanisms by which
             to seek such data. The proposing release should also include a
             request for such data. 48

Where quantification is not possible, the Current Guidance expresses the
following expectation:

             If costs or benefits cannot reasonably be quantified, the release
             should include an explanation of the reason(s) why quantification is
             not practicable and include a qualitative analysis of the likely
             economic consequences of the proposed rule and reasonable
             regulatory alternatives. The release should discuss the strengths
             and limitations of the information underlying the qualitative cost-
             benefit analysis. Rulewriters should work with RSFI economists to

44
     Id., p. 12.
45
     Id., pgs. 13-14.
46
     Id., p. 14.
47
     Id., p. 14.
48
     Id., p. 12.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings               June 6, 2013
Report No. 518
                                               Page 14
            clearly identify important uncertainties underlying the analysis and
            to explain the implications of these uncertainties for the analysis. 49

Our review found that qualitative descriptions of costs and benefits were almost
always included and often fairly well-developed in the rules, but the quantification
of costs beyond Paperwork Reduction Act (PRA) costs was not extensive and
the quantification of benefits was presented in only one of the rules. Specifically,
7 of the 12 rules presented quantified costs beyond PRA costs. 50 In this
evaluation, we are not stating that these releases should have had quantified
benefits and additional quantified costs, but are noting the large number of rules
that did not estimate benefits or costs beyond PRA costs. In discussions with
rulewriting teams and economists, as well as reviews of supporting
documentation for many of these rules, it was clear that effort was made to
identify costs and benefits and potential data to use in quantification of those
impacts, but not all of that effort was evident in the releases themselves, despite
the Current Guidance’s specification to include them in the “economic
analysis.” 51

Requirement 4, Component 1

Component 1 addresses the collaboration between RSFI economists and the
rulewriting teams that should occur in preparing the economic analysis of a
rulemaking. Requirement 4 does not require documentation of the collaboration.
Thus, we evaluated internal documents to verify that collaboration had occurred.

All seven of the rules included in our indepth examination of nonpublic
documents had clear evidence of collaboration between RSFI economists and
the rulewriting teams in the analysis of the economic effects of the rule.

In addition, one rule that was not included in the indepth examination, Release
No. 34-67286, had information in its rule release that served as evidence that this
component had been met. For the remaining four rules that were not selected for
indepth investigation, we were unable to assess whether collaboration took
place, although we have no reason to believe it did not.




49
     Id., pgs. 13-14.
50
  The following rules presented PRA costs as the only quantified estimates: Release Nos. IA-3483, 33-
9338, 34-67901, 34-68080, 33-9330, 33-9308, 34-67457 and 34-67286.
51
  Current Guidance, pgs. 10, 11, 13, 14, and 15. See specifically “Court decisions addressing the economic
analysis in Commission rules have likewise stressed the need to attempt to quantify anticipated costs and
benefits, . . .” pg. 13.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                        June 6, 2013
Report No. 518
                                               Page 15
Requirement 4, Component 2

Component 2 addresses whether a rule “identif[ies] and describe[s] the most
likely economic benefits and costs of the proposed rule and alternatives.” 52 This
component includes addressing compliance costs, direct costs, or indirect costs
as well as “significant ancillary economic consequences”53 of the proposed rule
and alternatives. All 12 rule releases that we evaluated had economic analyses
that identified and described the most likely economic benefits and costs of the
proposed rule and alternatives.

Requirement 4, Component 3

Component 3 specifies providing evidence in the rule that:

       1)          an attempt to quantify and monetize costs and benefits was
                   undertaken;

       2)          RSFI identified the resources necessary to develop
                   quantification data;

       3)          the proposing release requested public comment on necessary
                   data not otherwise available to RSFI; and

       4)          the economic impacts of both statutory (Congressionally
                   mandated) and discretionary elements of the rule were
                   considered.

The ability to demonstrate that a rule followed those elements of the Current
Guidance hinges on whether quantification of expected costs and benefits is
presented in the release text. The absence of quantified benefits or costs in the
release text does not necessarily indicate that the Current Guidance was not
followed. The Current Guidance acknowledges that economic effects cannot
always be quantified. The Current Guidance does discuss other steps that the
SEC should take when it determines that quantification is not feasible, and we
have separately evaluated below whether this requirement was satisfied. (See
discussion below on component 4 of requirement 6.)

Of the 12 rules reviewed, 10 of the rules provided evidence in their releases for
all of the above-noted elements on quantifying expected benefits and costs.

The other two rules provided evidence that some of the aspects of quantifying
expected benefits and costs had been addressed. Specifically:

52
     Id., p. 9.
53
     Id., p. 10.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings             June 6, 2013
Report No. 518
                                            Page 16
     •   Release No. IA-3483, an extension of a temporary rule that was
         scheduled to “sunset,”54 did include a qualitative analysis of the
         proposed extension and had requested comment on all aspects of
         the economic analysis. The release also referenced the economic
         analysis of the rule itself, which was included in the original 2007
         adopting release text in order to provide context for the discussion
         of the extension. However, there was no presentation of an
         attempt to quantify and monetize costs and benefits; rather the rule
         referenced an analysis prepared in 2007 for the first release of this
         temporary rule.

     •   Release No. 34-67457 deferred detailed economic analysis until
         the SROs submitted a single National Market System (NMS) plan.
         While the release provided justification for not quantifying costs of
         the SROs’ preparation of the NMS plan, it did not address the
         potentially significant internal costs and benefits to the SEC as a
         result of this rulemaking.

Requirement 4, Component 4

Component 4 stipulates that, for those rule releases in which benefits or costs (or
both) are quantified, the release text should identify the sources and methods of
quantification, specify statistical and stakeholder data used, and specify the
timeframe of the analysis.

Of the 12 rules that we reviewed, we found that 11 rules identified the sources
and methods of quantification, and one did not. The rule that did not specify its
sources and methods was Release No. IA-3483, which is an extension of a
temporary rule. The release text referenced an economic analysis in a 2007
release but did not include the sources and methods used. While the rulewriting
team and RSFI emphasized that they did not believe costs had materially
changed, it was our view that excluding the sources or methods used to make
this determination does not follow the spirit of the Current Guidance for this part
of requirement 4.

In general, rule releases that specified a timeframe considered one-time or
annual costs (or both). They did not include an explicit duration such as 10, 20,
or 30 years, as is generally expected in cost-benefit analysis for public
policymaking. 55 Moreover, the rule releases in our sample, which calculated

54
  A “sunset” provision is a stipulation that a rule or a component of a rule expires at the end of a fixed
period.
55
  The Current Guidance uses the term cost-benefit analysis throughout, but does not specify that the
economic analyses performed for SEC rulemakings include several elements that are characteristic of such
analyses which use that term, such as a specified timeframe (i.e., number of years with a specific beginning
and ending date), discounting of costs and benefits, and a metric of comparison between costs and benefits.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                               June 6, 2013
Report No. 518
                                                  Page 17
annual costs, assume those costs are constant over time. The Current Guidance
does not require inclusion of an explicit period, and RSFI has stated that to the
extent it was deemed material to the analysis, staff economists would select an
appropriate horizon on the basis of the circumstances underlying the analysis.

Requirement 4, Component 5

Component 5 specifies that the rule should discuss uncertainties underlying
estimates of costs and benefits by describing all available quantitative
information for non-monetized costs and benefits. Additionally, where
monetization or other quantification is possible, the proposing release should
include those numbers and solicit comment on them, and the adopting release
should address any comments on the numbers. The absence of additional
quantified information for non-monetized benefits or costs (or both) in the release
text does not necessarily indicate that the Current Guidance was not followed.

Our review found that 9 of the 12 rules in our sample followed this component.
The three rules that partially followed the component are described below.

    •   Release No. 33-9338 included no descriptions of quantitative
        information beyond PRA-type costs presented. For example, the
        release text did not have information about the size of the markets
        to be regulated by this rulemaking.

    •   Release No. 33-9354 only partially followed the component
        because there was no discussion of uncertainties underlying the
        estimates.

    •   Release No. 33-9330 did not include any quantitative information
        for non-monetized costs and benefits. The release did address
        comments received on data used in the proposing release;
        therefore, it partially followed the component.




While the Current Guidance does not mention discounting of costs and benefits or assessing the two against
each other, it does use the term “timeframe,” though not as typically applied in cost-benefit analysis.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                        June 6, 2013
Report No. 518
                                               Page 18
Requirement 4, Component 6

As noted above in the discussion of Component 3, when RSFI economists and
rulewriting staff conclude that economic effects cannot reasonably be quantified,
then Component 6 applies. We evaluated releases for:

     1)      an explanation of the reason(s) why quantification was not
             practicable;

     2)      a qualitative analysis of the likely economic consequences of
             the proposal and the principal alternatives if complete
             quantification was not possible; and

     3)      a description of the strengths and limitations of the information
             underlying the qualitative cost-benefit analysis.

Of the 12 rules in our sample, we found that 5 rules fully explained the
justification for not quantifying costs and benefits. Below we describe
seven rules that partially followed this component.

     •    Release No. 34-67457 partially followed the component because it
          deferred detailed economic analysis until the SROs had submitted
          a single NMS plan. Specifically, the evaluation team found that the
          rulemaking provided adequate justification for not quantifying costs
          since the SROs would best be able to estimate their own internal
          costs when submitting the NMS plan. However, there are
          significant internal costs and benefits to the SEC as a result of the
          rulemaking. While the Current Guidance notes that the standard
          procedure of the SEC is to ignore internal costs, we found that
          there was not adequate justification given for ignoring internal costs
          and benefits. 56 Therefore, the rulemaking partially followed the
          component.

     •    Release No. 33-9330 partially followed the component because
          while it did not detail the reasons why quantification of costs and
          benefits was not practical, it did provide a qualitative analysis.

     •    Release Nos. 33-9354 and 34-67286 partially followed the
          component because they did include explanations of why
          quantification is not practicable, but did not explain the strengths
          and limitations of the information underlying the qualitative

56
   The Current Guidance states, “But in some cases the effect of the rules on internal SEC operations may
be significant enough to be considered as a component of the overall costs and benefits. The degree of
consideration given to internal costs and benefits will differ depending on their importance in a particular
rulemaking.” p. 12.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                            June 6, 2013
Report No. 518
                                                 Page 19
            economic analysis. In the case of Release No. 34-67286, the
            rulewriting team stated that this was strictly a process rule that
            prescribed the form and manner in which information is submitted
            to the SEC. Therefore, they felt that a discussion of the strengths
            or limitations of the qualitative economic analysis was not
            applicable to this release.

       •    Release No. 33-9338 partially followed the component. It stated
            that “programmatic costs were very difficult to quantify and
            measure,” which the evaluation team found to be a statement
            rather than “an explanation of the reason(s) why quantification is
            not practicable.” 57 However, the rule did include a substantial
            qualitative analysis of the proposal.

       •    Release No. IA-3483 partially followed the component. While
            interviews with RSFI and the rulewriting team revealed that they
            could not quantify the costs and benefits of the rule because they
            did not know the extent to which firms currently rely on the rule, a
            discussion of this was not in the benefits and costs section of the
            release. Specifically, the statement, “The extent to which firms
            currently rely on the rule is unknown,” is in the release text, but the
            text does not suggest that this is why quantification is not possible
            and so we do not consider this to be “an explanation of the
            reason(s) why quantification is not practicable.” 58

       •    Release No. IC-30268 partially followed the component. While the
            release text documents that the lack of comprehensive data on
            Business and Industrial Development Companies (BIDCOs)
            prevents quantification beyond per-firm compliance costs, the
            release does not provide justification for not quantifying benefits.

We interviewed the rulewriting teams about those seven rules. (See Table 2 in
Appendix II) We also interviewed RSFI economists about use of the Current
Guidance generally during rulemakings. They told us that the economic
analyses could not specify any additional cost estimates or benefits because the
SEC did not have access to the detailed and robust data that it needed.

Requirement 4, Component 7

Component 7 includes language on supporting predictive judgments and framing
costs and benefits. RSFI economists should:

57
  The Current Guidance states that “the release should include an explanation of the reason(s) why
quantification is not practicable.” p. 13.
58
     Id., p. 13.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                         June 6, 2013
Report No. 518
                                               Page 20
           1) investigate the availability of studies or other empirical evidence
              that might inform the analysis at the outset of the rulemaking;

           2) present in the rule a justification for reliance on certain empirical
              evidence or studies (or both) over others;

           3) include in the rule an explanation of why any available studies or
              comments were discounted in the analysis for the rule; and

           4) discuss in the release the impact of scenarios that might mitigate
              the costs or enhance the benefits of the rule, if the release
              discusses those scenarios.

Of the 12 rules in our sample, we found that 6 rules supported predictive
judgments and addressed contrary data; 1 rule partially followed this component;
and 5 rules were not assessed for this component. For those five rules, the
scope of our evaluation did not enable us to assess the component, but we have
no basis to believe that they did not comply. 59

We found that Release No. 33-9338 partially followed the component because it
did not cite studies, or explain why studies were discounted. It did, however, cite
in the release GAO testimony about mitigating risks and so partially met the
component.

Requirement 4, Component 8

Component 8 specifies guidance on combining the economic analysis of costs
and benefits with the consideration of the effects on ECCF. 60 Specifically, the
Guidance states:

              SEC rulemaking releases have often included separate sections
              captioned ‘Cost-Benefit Analysis’ (“CBA”) and ‘Efficiency,
              Competition, and Capital Formation’ (“ECCF”). We do not believe
              this is necessary. This approach can result in redundancy and
              unnecessary parsing of economic effects. 61

The Current Guidance then recommends potential approaches for integrating the
ECCF analysis throughout the release.

Eleven rules discussed their effects on ECCF in the economic analysis and thus
fully satisfied this component. One rule, Release No. IC-30268, did not include a

59
     We did not assess this component for these rules, as they were not selected for the indepth evaluation.
60
     Current Guidance, p. 14.
61
     Id.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                             June 6, 2013
Report No. 518
                                                  Page 21
discussion of ECCF in its economic analysis section. The rulewriting team stated
that they understood the Current Guidance required a discussion of the most
likely ECCF impacts of the rule, but because they believed that the rule would
have no effect on ECCF, they did not include such information in the release.
HDR understood the Current Guidance to require integration of consideration of
the effects on ECCF into the economic analysis section of the release text. In
this case, even though the rulewriting team believed the rule would have no
effect on ECCF, we interpreted the Current Guidance to mean that the rulewriting
team’s determination of “no ECCF effect” should have been included in the
release text.

Requirement 5 - Integration of Economic Analysis into the Rulemaking
Process. We found that all seven rules for which this requirement was assessed
fully followed requirement 5 that “Economic Analysis [should be] integrated into
the rulemaking process and the rule release.”

Our review of requirement 5 included a detailed evaluation of nonpublic
documents beyond the rule release for the seven rules that we reviewed in more
depth. We met with rulewriting team members for these seven rules.

We did not fully assess the five other rules that were a part of this evaluation for
this requirement. We partially assessed these rules against requirement 5 on the
basis of evidence that was in the rule release. We were unable to evaluate rules
against components 2 and 3 using only publicly available release texts. 62
However, there is no requirement in the Current Guidance for documenting
collaboration on the rules in release texts. Therefore, while we were not able to
fully assess requirement 5 for these five rules, we did not find any evidence to
suggest that requirement 5 was not fully met in any case. Further interviews with
rulewriting teams, OGC, and RSFI indicated a broad belief that the
implementation of the Current Guidance had resulted in collaboration across all
rulemakings.

Conclusion
Our review found that the SEC rules in our sample followed the spirit and intent
of the Current Guidance. All rules that we evaluated specified the justification for
the rule (requirement 1), considered alternatives (requirement 3), and integrated
the economic analysis into the rulemaking process (requirement 5).

All of the rules that we examined either fully (two rules) or partially (ten rules)
followed requirement 2 on specification of the baseline. We further found that
some rules did not clearly specify and discuss baselines in the economic analysis
section; the current conditions were often presented separately from the
economic analyses in rule releases. This is primarily an issue of presentation.
62
     See Appendix VII.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings      June 6, 2013
Report No. 518
                                        Page 22
Also, some release texts did not completely and explicitly address the existing
state of ECCF in the baseline discussion.

All of the rules that we examined either fully (five rules) or partially (seven rules)
followed requirement 4 on the analysis of economic consequences. In addition,
while all but one rule release discussed benefits qualitatively, only 1 out of 12
included quantification of benefits, which is a notably small portion of the rules
that we evaluated. Further, while many rules estimated compliance costs in a
manner similar to those presented for PRA submissions, only six attempted to
estimate other costs. RSFI staff and the rulewriting teams indicated in interviews
that they were hampered by lack of available data that was robust and specific
enough to estimate many of the costs and benefits. They also indicated that the
Current Guidance does not require that such estimates be made if the staff
determines that it is not feasible to estimate those costs or benefits (or both).
However, the Current Guidance requires that the release specify reasons why
quantification was not feasible. We found that 5 of the 12 rules followed that
component.

In addition, we found definitions of baselines for extensions to existing rules
uniformly assumed continuation of the expiring regulation. However, the Current
Guidance does not specify how the baselines for extensions should be treated.
Instead, it requires a baseline that is “the best assessment of how the world
would look in the absence of the proposed action.” The Current Guidance also
notes that “[a]n economic analysis of a proposed regulatory action compares the
current state of the world, including the problem that the rule is designed to
address, to the expected state of the world with the proposed regulation (or
regulatory alternatives) in place.” 63 In the case of extensions, the above two
quotes from the Current Guidance offer contradictory direction.

           Recommendation 1:

           In consultation with the rulemaking divisions and offices, the Division of
           Risk, Strategy, and Financial Innovation (RSFI) should develop a general
           outline of economic considerations that discusses the substantive
           requirements for economic analyses in rule releases. Topics covered
           should include defining a baseline, explaining any quantification in the
           release, or explaining the reasons why benefits or costs (or both) could
           not be quantified. RSFI should also create a checklist that rulewriting
           teams can use when drafting rule releases. The checklist should clearly
           identify which elements of the Current Guidance on Economic Analysis in
           SEC Rulemakings must be included in public documents and which
           elements are recommended for inclusion in public documents, but are not
           required.


63
     Current Guidance, p. 6.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings        June 6, 2013
Report No. 518
                                        Page 23
        Management Comments. RSFI concurred with this recommendation.
        See Appendix VIII for management’s full comments.

        OIG Analysis. We are pleased RSFI concurred with our
        recommendation. The OIG considers this recommendation resolved.
        However, this recommendation will remain open until documentation is
        provided to the OIG that supports it has been fully implemented.

        Recommendation 2:

        The Division of Risk, Strategy, and Financial Innovation, in consultation
        with the Office of the General Counsel, should document the policies and
        procedures on how the Current Guidance on Economic Analysis in SEC
        Rulemakings applies to extensions of existing rules.

        Management Comments. RSFI and OGC concurred with this
        recommendation. See Appendix VIII for management’s full comments.

        OIG Analysis. We are pleased RSFI and OGC concurred with our
        recommendation. The OIG considers this recommendation resolved.
        However, this recommendation will remain open until documentation is
        provided to the OIG that supports it has been fully implemented.


Finding 2: FINRA, other SROs, and the PCAOB
Are Not Required to Follow the SEC’s Current
Guidance in their Rulemaking Efforts
        The Current Guidance does not apply to the Financial
        Industry Regulatory Authority (FINRA), other self-regulatory
        organizations (SRO) under the Commission’s jurisdiction, or
        to the Public Company Accounting Oversight Board
        (PCAOB). SROs are not required to conduct economic
        analysis under the Exchange Act, but are required to include
        in their rule filings a discussion of the potential impact of a
        proposed rule change on competition.

According to SEC staff, the Current Guidance does not apply to self-regulatory
organizations, including FINRA, or to the PCAOB. 64 The Commission does not
require SROs to follow the Current Guidance when submitting a proposed rule,
nor are they required to conduct economic analysis under the Securities

64
  The PCAOB is not a self-regulatory organization; it is an independent, District of Columbia nonprofit
organization established by the Sarbanes-Oxley Act. The SEC oversees PCAOB rule filings in a manner
similar to SROs.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                         June 6, 2013
Report No. 518
                                               Page 24
Exchange Act of 1934 (Exchange Act). The Commission does, however,
consider the effects of SRO rule filings on ECCF. The Exchange Act requires
SROs to include in their rule filings a discussion of the potential impact the
proposed rule could have on competition. The Current Guidance was developed
to focus exclusively on the process for SEC rulemakings and does not address
Commission reviews of SRO rule filings. SEC staff members believe that the
application of any specific requirements for SROs on how they conduct economic
analysis in support of SRO rule filings would first require either a separate SEC
rulemaking or legislation specifically establishing SEC direction on SRO
economic analysis for rulemaking.

SROs under the SEC’s Oversight
SROs are industry sector-specific participation organizations that set standards
and requirements for their members and their activities in the marketplace. The
Exchange Act, which established the SEC, includes standards that are applicable
to SROs in connection with their obligation to oversee their members and
markets. The SEC has oversight of 34 SROs including:

       •   seventeen national securities exchanges;

       •   nine registered clearing agencies;

       •   five notice-registered future exchanges;

       •   the Financial Industry Regulatory Authority;

       •   the Municipal Securities Rulemaking Board; and

       •   the National Futures Association.

The SEC also exercises oversight responsibility over the PCAOB, which is a
nonprofit organization established by the Sarbanes-Oxley Act and not an SRO.
However, the PCAOB’s authorizing statute subjects its rule filings to a process
similar to the process that is applied to SRO rules.

SRO Rulemakings and the Commission

While the Exchange Act does not explicitly require SROs to conduct any specific
economic analysis, the notice and comment process under Section 19(b) of the
Exchange Act allows for the SEC’s consideration of potential impacts of
proposed rule changes, including issues on economic analysis. SROs are
required by the Exchange Act to include in their rule filings a discussion of the


Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 25
potential impact of the proposed rule change on competition, 65 but there is no
existing requirement that the discussion include a broader assessment of
economic effects.

The Exchange Act requires SROs to file proposed rules or proposed rule
changes with the SEC. It gives the Commission authority to approve the SRO’s
proposed rule or rule change if it finds that the rule is consistent with the
Exchange Act, or to disapprove the SRO’s proposed rule or rule change if it does
not make such a finding. Section 3(f) of the Exchange Act also requires the
Commission, in rulemaking or in the review of a rule of an SRO, to consider or
determine whether an action is necessary or appropriate in the public interest.
The Commission must also consider, in addition to the protection of investors,
whether the SRO rules or rule changes will promote efficiency, competition, and
capital formation. 66 The definition of what constitutes an SRO rule or rule change
is fairly broad and includes, among other things, changes in standards, fees,
business or commercial practices, new products, etc. 67 In fiscal year 2012, the
SEC received approximately 1,600 rule filings from SROs.

In some cases SEC economists may provide assistance in assessing SRO rule
filings, depending on the nature of the rule filing and the issues that are raised.
Currently, the SEC generally reviews SRO rule filings for consistency with the
Exchange Act and in consideration of promoting ECCF and investor protection,
among other things.

SRO rulemakings can take one of two paths:

           Path 1: The SRO rule takes effect automatically when filed with the
           SEC. These often consist of fee changes, ‘non-controversial’ rules
           and other similar actions. The SEC can temporarily suspend the
           proposed rule change that became effective upon filing if such
           action is necessary or appropriate in the public interest, for the
           protection of investors, or otherwise in furtherance of the purposes
           of the Exchange Act.


65
  See Item 4 of the General Instructions for Form 19b-4 (requiring that an SRO include in each rule filing a
statement as to “whether the proposed rule change will have an impact on competition” and, if so, to provide
certain additional explanation and details about such effects). This requirement is not applicable to the
PCAOB, which, as noted above, is not an SRO.
66
    Section 3(f) of the Exchange Act. Section 3(f) does not apply to PCAOB rulemaking because the PCAOB
is not an SRO. However, the Jumpstart Our Business Startups Act (JOBS Act) amended the Sarbanes-
Oxley Act to provide that rules of the PCAOB adopted after the effective date of the JOBS Act do not apply
to an audit of an emerging growth company unless the Commission determines that the rule is necessary or
appropriate in the public interest, after considering the protection of investors and whether the rule will
promote efficiency, competition, and capital formation. The PCAOB has incorporated ECCF analysis into its
rulemaking since the JOBS Act became effective.

67
     See Section 19(b)(3)(A) of the Exchange Act, for example.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                           June 6, 2013
Report No. 518
                                                  Page 26
       ‘Non-controversial’ rules are effective immediately, but compliance
       is delayed unless the SEC waives the 30-day operative delay. The
       majority of SRO rulemakings – approximately 1,200 of the 1,600 in
       fiscal year 2012 – were “effective on filing.”

       Path 2: The SEC must make an actual finding to approve or
       disapprove the SRO rule. Many of these filings can have a
       business impact on the SRO.

SROs and the Current Guidance. Staff in RSFI, the rulemaking divisions and
offices, and OGC informed us that the Current Guidance was developed
expressly for SEC rulemakings only and was not intended to apply to SROs or
the PCAOB. The SRO rulemaking process differs from the SEC rulemaking
process in terms of both procedures and subject matter. Interviews with OGC
and RSFI indicated that the Current Guidance was developed to apply to SEC
rulemakings and does not address how the SEC reviews SROs’ proposed rules
or the process SROs should use to assess impacts on competition arising from
their rule proposals.

SEC management further informed us that none of the rules and forms
applicable to SRO rule filings currently includes any requirements that direct
SROs to conduct their rulemakings in a specific manner. SEC management
believes that to establish rules or guidelines for the use of economic analysis in
SRO rulemakings, Congress would have to adopt legislation or the Commission
would have to undertake a separate rulemaking specifically to prescribe how
SROs should conduct economic analysis in support of their rulemakings.

Conclusion

The Current Guidance does not apply to FINRA, other self-regulatory
organizations under the Commission’s jurisdiction, or the PCAOB. As a result,
the Commission does not require SROs to follow the Current Guidance when
submitting a proposed rule. SROs are not required to conduct economic analysis
under the Exchange Act, but SROs are required to include, in their rule filings, a
discussion of the potential impact the proposed rule could have on competition.
Additionally, the Commission considers the effects of SRO rule filings on ECCF
when making a finding to approve or disapprove an SRO filing.

We make no recommendation for this finding.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings     June 6, 2013
Report No. 518
                                        Page 27
Finding 3: The SEC’s Use of the Current
Guidance Has Been Effective in Incorporating
Economic Analysis in the Rulemaking Process,
but Improvements are Needed in Presenting
Economic Analysis
         We determined that the SEC’s use of the Current Guidance
         has been effective in incorporating economic analysis into
         the rulemaking process and in supporting decisionmaking on
         rule content. However, use of the Current Guidance has not
         always resulted in consistent presentation of information
         about the anticipated economic effects of regulatory actions
         across all rulemakings.

To measure effectiveness, we reviewed all 12 rules in our sample to determine if
they included economic analysis in line with the Current Guidance. We also
interviewed RSFI and the rulewriting offices about the subset of seven rules that
we chose for a more indepth analysis. Specifically, for clarification, we
interviewed RSFI and the rulewriting team for each of the seven rules. Further,
we reviewed the supporting internal documentation for those seven rules to
assess whether the collaboration and process requirement was followed.

While the rulewriting teams have generally followed the Current Guidance,
economic analysis is not always consistently presented in the release text in
alignment with the requirements of the Current Guidance. RSFI economists
were involved in the rulemaking process from the outset of all the SEC rules that
we reviewed to determine if they followed requirement 5 of the Current
Guidance. 68 RSFI staff informed us that implementation of the Current Guidance
has resulted in the rulewriting divisions and offices understanding the economic
analysis requirements and that the rulewriting divisions and offices have engaged
the support of RSFI at the beginning of the rulemaking process.

The following is a summary of our work outlined in Finding 1 of this report that is
relevant to assessing the effectiveness of the Current Guidance.

         Requirement 1: All 12 rules in our sample followed the requirement
         that releases include a clearly identified justification for the
         regulatory action being discussed.

         Requirement 2: We found that the rulewriting teams did not
         consistently apply the Current Guidance for all 12 rules. Only 2 of
68
  See Appendix II for a discussion of the procedure we used to select rules for our evaluation of the process
requirement in the Current Guidance.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                           June 6, 2013
Report No. 518
                                                Page 28
       the 12 rules had well-defined baselines fully in line with the
       requirements of the Current Guidance; the remaining 10 rules only
       partially followed the requirements. Also, most of the rules we
       reviewed did not specifically address the existing state of ECCF in
       the baseline.

       Requirement 3: We found that all 12 rules followed the requirement
       that releases identify alternatives to proposed rules.

       Requirement 4: We found that 5 rules fully followed this
       requirement and 7 partially followed it. While acknowledging that
       all rules are somewhat unique and rulewriting teams need flexibility
       in preparing economic analyses, we found that many rule releases
       did not address all components of this requirement.

           •   Component 3: Nine of the 12 rules provided evidence in
               their releases of all four elements for quantifying expected
               benefits and costs. Three of the rules provided evidence of
               some, but not all, of the elements.

           •   Component 6: Five of the 12 rules provided justification in
               their releases for not fully quantifying costs and benefits.
               Seven rules provided partial justification.

       Requirement 5: We found that all 7 of the rules we assessed for
       this requirement followed the Current Guidance. For this
       requirement, we examined nonpublic documents for 7 of the 12
       rules (see Appendix II for details) and found evidence that RSFI’s
       economists were involved at or near the outset of the rulemaking
       process for the rules. For the remaining five rules, we did not
       assess internal documentation for adherence to this requirement.

Our review of internal documentation such as term sheets and draft proposing
and adopting releases indicated that there was collaboration between the OGC,
RSFI, and the rulewriting divisions and offices in many aspects of the rulemaking
process, as required by the Current Guidance. Also, there was evidence of
strong collaboration in drafting the economic analysis sections for the seven rules
that we reviewed to determine if they followed the process requirement.
Therefore, we determined that the Current Guidance has generally been effective
in increasing the use of economic analysis throughout the rulemaking process
and in supporting decisionmaking on rule content.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings      June 6, 2013
Report No. 518
                                        Page 29
Conclusion

The Current Guidance has been effective in increasing the use of economic
analysis through the rulemaking process, ensuring collaboration between RSFI
and the rulewriting teams, and supporting decisionmaking on rule content.
However, use of the Current Guidance has not always resulted in a clear and
consistent presentation of information in the economic analyses. Specifically, the
specification of baselines and information on the anticipated economic effects of
regulatory actions in economic analyses supporting rulemakings was not always
clearly and consistently presented.

We suggest that the SEC implement a management control, such as a guide, to
assist economists and rulewriting teams in ensuring that the economic analyses
are presented in a more consistent manner within release texts. A guide should
include:

    1)   Justification for the rulemaking action.

           •   Does the rule release include a discussion of the need for
               regulatory action and how the proposed rule will meet that
               need?

           •   Where a cited justification for the rule is a statutory directive,
               does the release include a discussion of any justification
               cited by Congress for the need for regulatory action?

   2)    The assumed baseline.

           •   Are the economic consequences of proposed rules
               measured against a baseline, which is the best assessment
               of how the world would look in the absence of the proposed
               action?

           •   Is a “clearly stated” baseline described?

           •   Is the baseline specified in the release text at the beginning
               of the economic analysis section or as part of a general
               introduction to the economic issues considered through the
               release?

           •   Does the release include a specific discussion of: the
               existing state of efficiency; the existing state of competition;
               and the existing state of competition?



Use of the Current Guidance on Economic Analysis in SEC Rulemakings          June 6, 2013
Report No. 518
                                        Page 30
   3)    Alternatives considered.

           •   Does the release identify and discuss reasonable potential
               alternatives to the approach in the proposed rule?

           •   Does the proposed rule release solicit public comments on
               the alternatives and their analysis?

   4) Costs and benefits of the regulatory action and principal alternatives.

           •   Does the rulewriting staff work with RSFI economists to
               develop the economic analysis?

           •   Does the analysis identify and describe the most likely
               economic benefits and costs of the proposed rule and
               alternatives?

           •   Does the analysis quantify expected benefits and costs to
               the extent possible?

           •   Does the analysis identify the source and method of
               quantification of costs and benefits?

           •   Does the analysis discuss any uncertainties underlying
               estimates of costs and benefits?

           •   Does the analysis explain the justification for not quantifying
               any unquantified costs and benefits?

           •   Does the analysis support predictive judgments and clearly
               address contrary data or predictions?

           •   Does the economic analysis of costs and benefits also
               include consideration of the effects on efficiency,
               competition, and capital formation?




Use of the Current Guidance on Economic Analysis in SEC Rulemakings       June 6, 2013
Report No. 518
                                        Page 31
       Recommendation 3:

       In consultation with the rulemaking divisions and offices, the Division of
       Risk, Strategy, and Financial Innovation should consider developing a
       management control, such as a guide, to facilitate greater consistency in
       presentation of economic analyses in proposing and adopting release
       texts. If developed, this guide would include sections identified as the four
       substantive requirements in the Current Guidance on Economic Analysis
       in SEC Rulemakings.

       Management Comments. RSFI concurred with this recommendation.
       See Appendix VIII for management’s full comments.

       OIG Analysis. We are pleased RSFI concurred with our
       recommendation. The OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to the OIG that supports it has been fully implemented.


Finding 4: Rulemaking Methodologies Across the
SEC Demonstrate Consistency
       We found no notable differences in economic methodologies
       or practices in support of rulemakings across the divisions
       that developed the rules in our sample.

Of the 12 rules included in our sample, 4 were developed by the Division of
Corporation Finance (CF), 6 by the Division of Trading and Markets (TM), and 2
by the Division of Investment Management (IM). All four of the rules that CF
developed fully or partially followed the five requirements; all six of the rules that
TM developed fully or partially followed the five requirements; and both rules that
IM developed fully or partially followed the five requirements.

Of the seven rules that we reviewed in our analysis of process integration, two
were published by CF, three by TM, and two by IM. Our interviews with
rulewriting teams indicated that the staff worked with economists in RSFI to
implement the Current Guidance throughout the rulemaking process.

Each rulewriting team described how they had discussed the baseline for the
rule’s costs and benefits with RSFI, which provides evidence of following
requirement 2, specifically component 3. Each team also said that they sent
comment summaries to RSFI during the rulemaking process. At least one
rulewriting team stated that the economic costs of the rule helped form the final
rule’s requirements.

Use of the Current Guidance on Economic Analysis in SEC Rulemakings        June 6, 2013
Report No. 518
                                        Page 32
Across all rulewriting divisions and offices, RSFI staff are integrated into the
rulemaking process prior to the completion of a draft. On the basis of our
interviews and review of internal documentation, we determined that the SEC
followed requirement 5 of the Current Guidance consistently across rulewriting
divisions and offices. In some cases, RSFI staff drafted sections of the economic
analysis and provided them to the rulewriting division. RSFI staff also described
their plan to train each rulewriting division this year on implementing the Current
Guidance and working with RSFI economists.

Overall, we determined that the rulemaking divisions and offices largely followed
the requirements of the Current Guidance. We make no recommendation for this
finding.


Finding 5: The SEC Could Benefit From Exploring
Alternate Estimation Methodologies and Practices
Used by Other Federal Administrative Agencies
        Although the SEC is not subject to Executive Order (E.O.)
        12866, certain approaches that other Federal administrative
        agencies apply to rulemakings might be beneficial to the
        SEC in its rulemakings.

Although the SEC is not subject to E.O. 12866, 69 it could benefit from using
certain approaches that other Federal administrative agencies–that are required
to follow E.O. 12866–apply to their rulemakings. Specifically, the SEC should
consider:

         1) assessing uncertainty in quantified cost-benefit analyses;

         2) scaling the level of analyses on the basis of classification of
            major and minor rules;

         3) establishing and applying standards on application of analytical
            timeframes such that the future effects of proposed and
            adopted regulations might be included in economic analyses of
            regulatory effects; and

         4) using proprietary or confidential business information to support
            economic analysis without identifying the source of the data.



69
  See E.O. 12866, Regulatory Planning and Review, issued September 30, 1993, 58 FR 51735 (Oct. 4,
1993).
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                    June 6, 2013
Report No. 518
                                             Page 33
During interviews with staff in RSFI and the division and office rulewriting teams,
we discussed the processes, methods, and complexities faced when preparing
economic analyses in support of rulemaking. We compared the results of these
discussions and our review of the Current Guidance to the processes, methods,
and requirements for conducting the “cost-benefit analysis” that is described in
OMB Circular A-4, other related OMB documents on rulemaking, and our
knowledge of rulemaking approaches at other administrative agencies.

We found that the term “economic analysis” is used throughout the Current
Guidance; the term CBA is used a few times. The Current Guidance describes
the approach the Commission takes in analyzing the costs and benefits of a rule.
However, the Current Guidance does not define CBA or how this term differs
from other types of economic analyses that the SEC prepares. Not defining the
terms could lead to some SEC personnel using the two terms interchangeably,
although they are different. 70 For external parties, the Current Guidance’s use of
the term CBA may result in expectations that the SEC intends to produce CBA
metrics that compare costs and benefits against each other, such as net present
value or internal rate of return. After evaluating the Current Guidance, we do not
believe that this is the SEC’s intention.

Some challenges that the SEC has faced and some issues identified during this
evaluation could potentially be addressed by further incorporating specific
elements in OMB Circular A-4 or practices that Federal administrative agencies
have adopted. For example, many of the economic analyses in the SEC’s rules
do not incorporate an explicit analytical timeframe because they do not include
either: 1) a full lifecycle cost analysis of the rule in their evaluation; 2) changes in
costs and benefits over time; 3) dynamic impacts of rule changes; or 4) a
discounting of the value of time. Administrative agencies typically estimate costs
and benefits over an explicit timeframe, frequently 10, 20, or 30 years into the
future, and present those monetized costs and benefits on a discounted basis. 71
The Current Guidance states that when quantifying costs and benefits, the
economic analyses should “specify the timeframe analyzed.” 72 Our interviews
with rulewriting teams and RSFI found that they generally believe that releases
should provide an estimate in the first year and a discussion of ongoing costs

70
   We generally observed conflation between the two terms by rulewriting teams. While the two have many
similarities, a CBA should result in one or more metrics that are a direct comparison of benefits and costs,
and that includes discounting of future benefits and costs such that the comparison is presented on a
present value basis. (See OMB Circular A-4: “A distinctive feature of CBA is that both benefits and costs
are expressed in monetary units, which allows you to evaluate different regulatory options with a variety of
attributes using a common measure.” p. 10.) SEC staff explained that economic analysis in support of
rulemaking would include any analysis on the possible economic effects of a rulemaking, even where a
comparison of costs and benefits, an assessment of discounted future effects, or one or more metrics
indicating a level of favorability of an alternative are not presented.
71
  “The time frame for your analysis should cover a period long enough to encompass all the important
benefits and costs likely to result from the rule.” OMB Circular A-4, p. 15.
72
     Current Guidance, p. 13.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                           June 6, 2013
Report No. 518
                                                 Page 34
and benefits, if appropriate. They further indicated that they do not believe that
there would be value in presenting a discounted present value of future benefits
and costs over a longer timeframe.

Most notably, we found the following:

     •   In several rules that we reviewed, there was no evidence of an
         attempt to estimate beyond one-time compliance costs, and there
         was little evidence of assessing the size of affected markets or
         quantifying benefits.

     •   The Current Guidance does not address the application of
         economic analysis to extensions for temporary rules. As a result,
         the treatment of analyses in releases for extensions to existing
         temporary rules, even though they were the product of agreement
         between RSFI and rulemaking staff, contrasted with the
         requirements of the Current Guidance. 73 For Release No. IA-3483,
         the analysis in the original temporary rule was referenced, but it
         was not modified or updated. 74

     •   Of the six rules that quantified ongoing costs, all of the rules
         presented costs as annual or first year and ongoing costs that do
         not change over time. None of these incorporated long-term
         potential dynamic impacts for structural changes in the financial
         markets.

RSFI staff informed us that they are concerned that they do not generally have
enough robust data to calculate multi-year estimates of costs and benefits and
generate common CBA metrics. Their chief concern was that such efforts could
mislead readers who do not understand the strengths and weaknesses of the
CBA methodology. While CBA methodology can highlight the overall impact of
temporal changes and patterns in costs and benefits, it can also lead to
overreliance on only those costs and benefits that are easily quantified and
monetized.

We asked RSFI economists and rulewriting teams whether they had considered
any of the approaches that other Federal administrative agencies use to facilitate
a better understanding of costs and benefits when robust data is unavailable.
Those approaches include using:



73
  The Current Guidance states that a baseline “is the best assessment of how the world would look in the
absence of the proposed action.” p. 6.
74
  The baseline in this rule is the continuation of a temporary rule that was going to expire unless action was
taken.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                             June 6, 2013
Report No. 518
                                                 Page 35
     1)     estimation of break-even points when costs are known, but
            benefits cannot be monetized with confidence;

      2)    costs per example firm or benefits per average beneficiary (or
            both) with characteristics defined by the economists preparing
            the analysis; and

      3)    benefit transfer methodologies when known benefits of a similar
            situation are calibrated and use a proxy.

The SEC has explored applying some of these approaches to its economic
analyses. RSFI staff expressed some concerns about potential limitations of
these approaches. In a 2012 speech, the SEC’s Chief Economist discussed
using estimation methodologies that draw from other areas: “We should identify
and discuss uncertainties about estimates. Perhaps we had to analogize to
another regulatory area to develop a quantified estimate.”75

Many rulemaking staff we interviewed indicated that current SEC policies on the
treatment of confidential data hampered their ability to gather and use data that
could substantially improve economic analysis. A consensus among the
rulewriting teams and RSFI staff is that generally all data used in the analysis
should be part of the public record and can be subject to Freedom of Information
Act (FOIA) requests. However, we found that other administrative agencies that
use confidential data in their Regulatory Impact Analyses do not disclose details
that are proprietary or the name of the entity to the public. 76

Some of the releases we examined discussed the risks of market failure, but did
not present an estimate of the likelihood or impact of failure. The SEC should
examine and document the advisability of using a formalized risk analysis or
sensitivity analysis (or both) as stipulated by OMB Circular A-4 (the former for
rules with very large potential impacts and the latter for rules with less significant
economic impact). In situations where costs are somewhat robust, but benefits
are less tangible, break-even calculations can be used to determine the point at
which costs equal benefits.

With the exception of Technical Rules, rulewriting teams must assess the likely
economic impacts for each rulemaking. The level of effort required varies by the
rule type, level of impact, complexity, and other factors. The SEC should
consider revising the Current Guidance to require fewer analytical tasks for rules

75
  Craig Lewis, “The Expanded Role of Economists in SEC Rulemaking,” remarks made at the Securities
Industry and Financial Markets Association Compliance and Legal Society Luncheon, October 16, 2012.
76
  For example, see the use of proprietary data via “subject matter expert” in U.S. Department of
Transportation’s Final Regulatory Impact Analysis of Rulemaking on Enhanced Airline Passenger
Protections, Docket ID DOT-OST-2007-0022-0265 and its Enhancing Airline Passenger Protections II –
Final Regulatory Analysis, Docket ID DOT-OST-2010-0140-2046.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                      June 6, 2013
Report No. 518
                                              Page 36
that have a small impact and additional analytical requirements for rules that
could potentially have a very large impact. This would result in a more formal
differentiation of level of effort among rules and would also align with OMB
Circular A-4.

       Recommendation 4:

       The Office of the General Counsel (OGC) should consider options for
       allowing the Division of Risk, Strategy, and Financial Innovation (RSFI) to
       include confidential information in the SEC’s rules without releasing it to
       the public. The OGC and RSFI should prepare a memorandum that
       documents a process that they have vetted, to describe any potential new
       approaches to handling such information.

       Management Comments. OGC and RSFI concurred with this
       recommendation. See Appendix VIII for management’s full comments.

       OIG Analysis. We are pleased OGC and RSFI concurred with our
       recommendation. The OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to the OIG that supports it has been fully implemented.

       Recommendation 5:

       The Division of Risk, Strategy, and Financial Innovation should examine
       the feasibility of presenting costs per example firm and benefits per
       average beneficiary where feasible for rule releases for which overall
       costs and benefits cannot be estimated. The results of this examination
       should be factored into the Current Guidance on Economic Analysis in
       SEC Rulemakings or its implementing procedures.

       Management Comments. RSFI concurred with this recommendation.
       See Appendix VIII for management’s full comments.

       OIG Analysis. We are pleased RSFI concurred with our
       recommendation. The OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to the OIG that supports it has been fully implemented.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 37
       Recommendation 6:

       The Office of the General Counsel and the Division of Risk, Strategy, and
       Financial Innovation should consider revising the Current Guidance on
       Economic Analysis in SEC Rulemakings to apply different levels of
       analysis for rules having different degrees of impact, remove reference to
       cost-benefit analysis, and specify procedures to be used for extensions of
       temporary rules.

       Management Comments. OGC and RSFI concurred with this
       recommendation. See Appendix VIII for management’s full comments.

       OIG Analysis. We are pleased OGC and RSFI concurred with our
       recommendation. The OIG considers this recommendation resolved.
       However, this recommendation will remain open until documentation is
       provided to the OIG that supports it has been fully implemented.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 38
                                                                      Appendix I


                                Abbreviations

       BIDCO                    Business and Industrial Development
                                Company
       CBA                      Cost-Benefit Analysis
       CF                       Division of Corporation Finance
       Current Guidance         Current Guidance on Economic Analysis in
                                SEC Rulemakings
       Dodd-Frank               Dodd-Frank Wall Street Reform and
                                Consumer Protection Act
       ECCF                     Efficiency, Competition, and Capital
                                Formation
       EDGAR                    Electronic Data Gathering, Analysis, and
                                Retrieval
       E.O.                     Executive Order
       Exchange Act             Securities Exchange Act of 1934
       FOIA                     Freedom of Information Act
       FINRA                    Financial Industry Regulatory Authority
       GAO                      Government Accountability Office
       HDR                      HDR Engineering, Inc.
       House Oversight          U.S. House of Representatives Committee
       Committee                on Oversight and Government Reform
       IM                       Division of Investment Management
       JOBS Act                 Jumpstart Our Business Startups Act
       NMS                      National Market System
       OGC                      Office of the General Counsel
       OIG                      Office of Inspector General
       OMB                      Office of Management and Budget
       OS                       Office of the Secretary
       PCAOB                    Public Company Accounting Oversight Board
       PRA                      Paperwork Reduction Act
       RSFI                     Division of Risk, Strategy, and Financial
                                Innovation
       SEC or Commission        U.S. Securities and Exchange Commission
       SRO                      Self-Regulatory Organization
       Subcommittee on          Subcommittee on TARP, Financial Services
       TARP                     and Bailouts of Public and Private Programs
       TARP                     Troubled Assets Relief Program
       TM                       Division of Trading and Markets



Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 39
                                                                                            Appendix II


                              Scope and Methodology

This evaluation is limited to the requirements that are specified in the Current
Guidance. To determine whether each rule within the scope of our review
followed the Current Guidance, we developed measures on the basis of both the
requirements expressly stated in the Current Guidance and also components
based on the discussion of each requirement in the Current Guidance.

The Current Guidance stipulates certain elements to be contained in the public
documents, while others do not have a specific location or type of document
specified or required. Therefore, some requirements and the components are
evaluated against documentation in rule releases as available in the Federal
Register. Other requirements and components may be evaluated against
documentation collected during fieldwork. Still other others may be evaluated
against both.

Our evaluation did not seek to assess the SEC staff’s professional judgment in
the rulemakings reviewed in this report. Instead, the evaluation is based on our
observations noted during our review consistent with our methodological
approach and the objectives of this report. Specifically, we assessed the
presence or lack of certain required or recommended components in the release
texts and, in the case of rules selected for indepth review, supporting documents.

Scope. This evaluation focused on the requirements in the Current Guidance
and on proposed, final, and interim final temporary 77 rules that were issued
between March 16, 2012, 78 and November 30, 2012. We reviewed laws,
regulations, and policies applicable to economic analysis by Federal agencies in
general, including specific requirements for administrative agencies of the
Federal Government.

Methodology. To meet the first objective of determining whether the SEC rules
followed the Current Guidance, including the four “[s]ubstantive requirements” as
well as the requirement of “enhanced integration of economic analysis” into the
rulemaking process, we reviewed the Current Guidance and SEC rules 79 that
77
  The SEC issues interim final temporary rules when the requirement for a rule is urgent and the
Commission cannot follow the normal course of the rulemaking process such as collecting comments from
the public.
78
     OGC and RSFI internally circulated the Current Guidance to the rulemaking divisions on March 16, 2012.
79
   Our scope consisted of all rules with the exception of 10 technical rules and 1 rule that was completed
prior to the Current Guidance, but was released after March 16, 2012. The rules excluded were: Release
No. IA-3418 “Political Contributions by Certain Investment Advisers: Ban on Third-Party Solicitation
(extension of compliance date),” Release No. 33-9287A “Technical Amendment to Net Worth Standard for
Accredited Investors,” Release No. 33-9303 “Adoption of Updated EDGAR Filer Manual,” Release No. 33-
9309 “Investment Company Advertising: Target Date Retirement Fund Names and Marketing (Reopening of
Comment Period),” Release No. 33-9353 “Adoption of Updated EDGAR Filer Manual,” Release No. 33-9364
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                           June 6, 2013
Report No. 518
                                                  Page 40
                                                                                       Appendix II


were published from March 16, 2012, to November 30, 2012. We also
interviewed Commission staff to determine how they prepared the economic
analyses for the rules that we reviewed and their use of the Current Guidance.
Lastly, we reviewed emails between rulewriting teams and RSFI, comments
RSFI made on draft economic analyses, term sheets, internal memoranda RSFI
prepared for rules, etc., and met with RSFI staff and rulewriting teams to discuss
the coordination between the rulewriting teams and RSFI for conducting
economic analysis under Requirement 5 of the Current Guidance.

We identified five overarching requirements in separate sections within the
Current Guidance. The five requirements were identified from express
statements in the Current Guidance. The first four are numbered and discussed
under “A. Substantive requirements for economic analysis in the SEC
rulemaking,” while the fifth is discussed under “B. Enhanced integration of
economic analysis into the rulemaking process and rule releases.”

We then examined each of these sections to extract one or more components.
The sections were further examined to extract definitions of these requirements
and components supported directly by the text of the Current Guidance or text of
reference documents directly cited in the Current Guidance (or both). Table 4 in
Appendix VII lists each of the 20 components, including direct language from the
Current Guidance, if it is useful and succinct. Each component is made up of
one or more objective measures that can be used to determine whether the
economic analysis of a particular rule meets the component. Those
measurements are also extracted directly from the Current Guidance or from
other documents cited in the Current Guidance. Those measures were
examined to determine if the source requirements for measurement were likely to
be the public text of the rule itself, a non-public source document, or a document
that was unlikely to be available. This determination was based on the content of
each individual measure.

To assess whether the Commission ensured that self-regulatory organizations
under its jurisdiction 80 followed the Current Guidance, we interviewed SEC staff
in TM, OGC, the Office of the Chief Accountant, and RSFI. We specifically
asked whether the Commission requires the SROs to apply the Current
Guidance to their rule filings. Further, we reviewed the relevant sections of the
Exchange Act.



“Adoption of Updated EDGAR Filer Manual,” Release No. 34-66910 “Amendments to Financial
Responsibility Rules for Broker-Dealers (Reopening of Comment Period),” Release No. IA-3403 “Technical
Amendment to Rule 206(4)-5: Political Contributions by Certain Investment Advisers,” Release No. 34-
67405 “Extension of Interim Final Temporary Rule on Retail Foreign Exchange Transactions,” and Release
No. 34-67901 “Extension of Temporary Registration of Municipal Advisors.” We also excluded Release No.
33-9308 “Exemptions for Security-Based Swaps Issued by Certain Clearing Agencies” from the evaluation
because it was completed prior to the introduction of the Current Guidance.
80
     These organizations include FINRA, other SROs, and the PCAOB.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                      June 6, 2013
Report No. 518
                                               Page 41
                                                                        Appendix II


To determine if the Current Guidance is effective, our second objective, we used
a two-step approach. First, we interviewed Commission staff from RSFI as well
as from the rulemaking offices and divisions of the Commission about the
effectiveness of the Current Guidance. For the second step, we reviewed the
findings from those interviews and noted any patterns or requirements for which
a notable portion of the rules that we reviewed did, or did not, follow the Current
Guidance.

To determine if all SEC rulemaking divisions and offices use a consistent
methodology for economic analysis, our third objective, we grouped the rules
reviewed in this evaluation by sponsoring office or division and then noted
whether or not there were any notable differences or patterns across those
groupings.

For our fourth objective, to determine if further improvements are needed for the
SEC’s rulemaking processes and procedures, we interviewed RSFI and
Commission rulewriting teams, and also reviewed the Current Guidance, OMB
Circular A-4, and rules published by other Federal agencies.

We asked rulewriting teams and RSFI for suggestions on how the Current
Guidance could be improved, if at all. We discussed the merits and drawbacks
of potential improvements, on the basis of the requirements for Federal
administrative agencies in OMB Circular A-4. We also reviewed the
requirements of the Current Guidance against OMB Circular A-4 on topics about
which SEC staff raised concerns.

Internal Controls. For our evaluation, we assessed the Commission’s internal
controls significant to our objectives on the basis of OMB Circular A-123,
Management’s Responsibility for Internal Control. That circular states,
“Management is responsible for developing and maintaining internal control
activities that comply with the following standards…control environment, risk
assessment, control activities, information and communication, and monitoring.”
The internal controls that we assessed included: 1) the Chief Economist’s review
and concurrence process for economic analysis; 2) OGC’s review of rulemakings
to ensure that the Commission addressed legal requirements; and 3) the
rulewriting division’s internal review process, such as the preparation of the
economic analysis by staff attorneys, and senior management’s (associate
directors, deputy directors, and directors) review of the economic analysis.

Information Systems Controls. We did not rely on computer processed data;
therefore, we did not assess information systems controls.

Judgmental Sampling. To identify our sample, we used judgmental sampling
because of the small universe of rules in our scope. Between March 16, 2012,
and November 30, 2012, the Commission proposed or adopted 23 rules,
consisting of 5 proposed rules, 16 final rules, and 2 interim final temporary rules.

Use of the Current Guidance on Economic Analysis in SEC Rulemakings      June 6, 2013
Report No. 518
                                        Page 42
                                                                        Appendix II


Out of the 23 rules, 10 rules were classified as “interpretative rules, general
statements of policy, or rules of agency organization, procedure, or practice,” 81 or
included in the release text an affirmative finding that “notice and public
procedure thereon are impracticable, unnecessary, or contrary to the public
interest.”82 We excluded those 10 rules from our review. Excluding technical
rules, the interim final temporary rules, and Release No. 33-9308 (which was
completed prior to the circulation of the Current Guidance), the remaining 12
rules were included in the substantive rules subset.

We identified seven rules, from among the substantive rules, for analysis to
determine whether or not they followed the process requirement in the Current
Guidance. This required us to review evidence other than the public documents,
including term sheets, memoranda, draft analyses, meeting notes and minutes,
and other correspondence.

The sampled rules that we evaluated in greater depth, to determine if they
followed the process requirement, represent a fair cross-section of the
substantive rules. However, this sample focuses on the rules published in the
middle or at the end of the evaluation period. It generally excludes extensions of
existing rules, except where noted in Table 2.

We selected our sample using the criteria and standards enumerated below.
The rules that we select to evaluate: 1) should be less than half of all substantive
rules identified; 2) should primarily include new regulations, as opposed to
extensions of existing regulations or a change in compliance dates, since those
earlier analyses were likely begun and even completed before the Current
Guidance was published; 3) must be selected from both the middle and later
periods of the timeframe to target rules more likely to have been prepared in full
consideration of the Current Guidance to determine if they followed the process
requirement; 4) should include representation from those SEC divisions that
frequently issue rules and also from at least one SEC division that infrequently
issues rules; 5) should include those that were found to have an economic
analysis beyond the required PRA assessment, as well as rules that did not
include an economic analysis beyond the PRA assessment; and (6) should
include at least one (of two possible) that was not a “Dodd-Frank” rulemaking,
meaning a rule not intended to implement some aspect of the Dodd-Frank Wall
Street Reform and Consumer Protection Act (Dodd-Frank).

Table 2 describes the rules that we included in the subset of the 12 substantive
rules analyzed for evidence beyond the public rulemaking documents.




81
     Administrative Procedure Act (5 U.S.C. Subchapter II) § 553(b).
82
     Id.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings      June 6, 2013
Report No. 518
                                                  Page 43
                                                                                        Appendix II


Table 2: Listing of Rules Analyzed for Evidence Outside of Public
Rulemaking Documents
                                      Proposed Rule Title/Description
  Release No.        Date                                                        Sponsoring Divisions
                                           (as on SEC website)

                                  Listing Standards for Compensation
33-9330         June 20, 2012                                                    CF
                                  Committees

34-67457        July 18, 2012     Consolidated Audit Trail                       TM

                                  Further Definition of “Swap,” “Security-
                                  Based Swap,” and “Security-Based Swap
33-9338         July 18, 2012                                                    TM
                                  Agreement”; Mixed Swaps; Security-Based
                                  Swap Agreement Recordkeeping

                                  Eliminating the Prohibition Against General
33-9354         August 29, 2012   Solicitation and General Advertising in Rule   CF
                                  506 and Rule 144A Offerings

                                  Capital, Margin, and Segregation
                                  Requirements for Security-Based Swap
                October 18,
34-68071                          Dealers and Major Security-Based Swap          TM
                2012
                                  Participants and Capital Requirements for
                                  Broker-Dealers

                                  Temporary Rule Regarding Principal             Investment Adviser
IA-3483         October 9, 2012
                                  Trades with Certain Advisory Clients           Regulation Office, IM

                                  Purchase of Certain Debt Securities by
                November 19,      Business and Industrial Development            Investment Company
IC-30268
                2012              Companies Relying on an Investment             Rulemaking Office, IM
                                  Company Act Exemption
Source: HDR Generated.

Prior Reviews: The SEC OIG has conducted two reviews of the SEC’s
economic analysis in rulemakings since June 2011. Both reports were prepared
in response to a Congressional request.

   •   Report of Review of Economic Analyses Performed by the
       Securities and Exchange Commission in Connection with Dodd-
       Frank Act Rulemakings, SEC OIG, June 13, 2011.

   •   Follow-Up Review of Cost-Benefit Analyses in Selected Dodd-
       Frank Act Rulemakings, Report No. 499, January 27, 2012.

Both reports concluded that systematic cost-benefit analyses were being
conducted for SEC rulemakings, but noted some potential deficiencies and one
made several recommendations for improvement.

The Current Guidance was prepared, in part, to address the noted deficiencies
and incorporate the recommendations where feasible. As noted in Report No.


Use of the Current Guidance on Economic Analysis in SEC Rulemakings                      June 6, 2013
Report No. 518
                                            Page 44
                                                                      Appendix II


516, the OIG found that the recommendations in SEC OIG Report No. 499 were
appropriately addressed in the Current Guidance.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 45
                                                                      Appendix III


                                      Criteria

Administrative Procedure Act of 1946, 5 U.S.C. § 501 et seq. Provides
minimal procedural standards that Federal administrative agencies must follow.
With respect to rulemaking, the APA requires agencies to give the public
advance notice of the contents of a proposed rule and to offer members of the
public an opportunity to express their views on the proposed rule. The APA also
provides that courts may set aside any rule found to be “arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with the law.”

Current Guidance on Economic Analysis in SEC Rulemakings. Provides
guidance on economic analysis and broadly outlines best practices in conducting
economic analysis. Discusses four elements of a good regulatory economic
analysis and other factors necessary for a comprehensive economic analysis.

Dodd-Frank Wall Street Reform and Consumer Protection Act, Public Law
No. 111-203, July 21, 2010. Reformed the financial regulatory system, including
how financial regulatory agencies such as the SEC operate, and mandated that
the SEC undertake a significant number of studies and rulemakings, including
regulatory initiatives addressing derivatives; asset securitization; credit rating
agencies; hedge funds, private equity funds, and venture capital funds; municipal
securities; clearing agencies; and corporate governance and executive
compensation.

Office of Management and Budget (OMB) Circular A-4, Regulatory Analysis,
Sept. 17, 2003. Provides OMB’s guidance to Federal agencies on developing
cost-benefit analyses required under E.O. 12866 and related authorities.

Paperwork Reduction Act of 1980, 44 U.S.C. § 3501 et seq. Gave authority
over the collection of certain information to OMB and mandated that Federal
agencies obtain an OMB control number before promulgating a form that will
impose an information collection burden on the general public. Also required
agencies to solicit and review public comments on the information collection
requirements of proposed rules, to evaluate the need for information collection,
and provide an estimate of the information collection burden.

Securities Act of 1933, Securities Exchange Act of 1934, Investment
Company Act of 1940, and Investment Advisers Act of 1940. Contain
provisions that require the Commission, when it is engaged in rulemaking under
those Acts and is required to consider or determine whether an action is
necessary or appropriate in the public interest, to consider, in addition to the
protection of investors, whether the action will promote efficiency, competition,
and capital formation.


Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 46
                                                                      Appendix III


Securities Exchange Act of 1934, Section 23(a)(2), 15 U.S.C. § 78w(a)(2).
Requires the SEC to consider the effect on competition of any rule promulgated
under the Exchange Act.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 47
                                                                       Appendix IV



                      List of Recommendations

Recommendation 1:
In consultation with the rulemaking divisions and offices, the Division of Risk,
Strategy, and Financial Innovation (RSFI) should develop a general outline of
economic considerations that discusses the substantive requirements for
economic analyses in rule releases. Topics covered should include defining a
baseline, explaining any quantification in the release, or explaining the reasons
why benefits or costs (or both) could not be quantified. RSFI should also create
a checklist that rulewriting teams can use when drafting rule releases. The
checklist should clearly identify which elements of the Current Guidance on
Economic Analysis in SEC Rulemakings must be included in public documents
and which elements are recommended for inclusion in public documents, but are
not required.

Recommendation 2:

The Division of Risk, Strategy, and Financial Innovation, in consultation with the
Office of the General Counsel, should document the policies and procedures on
how the Current Guidance on Economic Analysis in SEC Rulemakings applies to
extensions of existing rules.

Recommendation 3:

In consultation with the rulemaking divisions and offices, the Division of Risk,
Strategy, and Financial Innovation should consider developing a management
control, such as a guide, to facilitate greater consistency in presentation of
economic analyses in proposing and adopting release texts. If developed, this
guide would include sections identified as the four substantive requirements in
the Current Guidance on Economic Analysis in SEC Rulemakings.

Recommendation 4:

The Office of the General Counsel (OGC) should consider options for allowing
the Division of Risk, Strategy, and Financial Innovation (RSFI) to include
confidential information in the SEC’s rules without releasing it to the public. The
OGC and RSFI should prepare a memorandum that documents a process that
they have vetted, to describe any potential new approaches to handling such
information.



Use of the Current Guidance on Economic Analysis in SEC Rulemakings     June 6, 2013
Report No. 518
                                        Page 48
                                                                      Appendix IV


Recommendation 5:

The Division of Risk, Strategy, and Financial Innovation should examine the
feasibility of presenting costs per example firm and benefits per average
beneficiary where feasible for rule releases for which overall costs and benefits
cannot be estimated. The results of this examination should be factored into the
Current Guidance on Economic Analysis in SEC Rulemakings or its
implementing procedures.

Recommendation 6:

The Office of the General Counsel and the Division of Risk, Strategy, and
Financial Innovation should consider revising the Current Guidance on Economic
Analysis in SEC Rulemakings to apply different levels of analysis for rules having
different degrees of impact, remove reference to cost-benefit analysis, and
specify procedures to be used for extensions of temporary rules.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 49
                                                                                 Appendix V


                     Requirements of the Current Guidance

The requirements of the Current Guidance are presented in Sections A and B
and consist of five major areas. Section A covers requirements on “substantive
requirements for economic analysis in SEC rulemaking,” and it includes four
major requirements that rulemaking staff are to follow. Section B covers a
requirement for “Enhanced integration of economic analysis into the rulemaking
process and rule releases.”

The Current Guidance’s substantive requirements are summarized below: 83

1.       Clearly identify the justification for the proposed rule. This section indicates
         that rule releases must include a discussion of the need for regulatory action
         and how the proposed rule will meet that need. Included in the section is
         more specific guidance about including a discussion in the public rule
         documents:

                 •   Stating the need for the rule (i.e., Congressional direction, market
                     failure, etc.) and how the proposed rule will meet that need.

2.       Define the baseline against which to measure the proposed rule’s economic
         impact. This section focuses on the baseline against which the economic
         consequences of proposed rules should be measured, which should be the
         “best assessment of how the world would look in the absence of the
         proposed action.” 84 Elements of this section include:

                 •   ensuring that a well-developed baseline is articulated in the
                     public rule documents;

                 •   discussing the baseline either at the beginning of the economic
                     analysis section or as part of a general introduction to the
                     economic issues that will be considered throughout the
                     release;

                 •   developing the baseline with both the rulewriting staff and the
                     RSFI economists;

                 •   clearly stating and describing any assumptions used in the
                     baseline;


83
     Current Guidance, pgs. 4-15.
84
     Id, p. 6.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings               June 6, 2013
Report No. 518
                                               Page 50
                                                                           Appendix V


        •   consistently using the baseline throughout;

        •   including the baseline in the existing state (i.e., in absence of
            the rule) of ECCF;

        •   clearly specifying uncertain aspects of the baseline; and

        •   including both economic attributes of the relevant market and
            the existing regulatory structure, including (where relevant)
            state law in the baseline.

3.   Identify and discuss reasonable alternatives to the proposed rule.
     This section discusses what constitutes reasonable alternatives to the rule
     being considered, including:

        •   that the release includes and considers reasonable potential
            alternatives that are actually available to the SEC (i.e., the
            Commission has the authority to implement);

        •   that both more stringent and less stringent alternatives could
            be considered;

        •   that proposing releases should solicit public comment on
            alternatives; and

        •   that the adopting release considers reasonable alternatives
            raised by public commenters.

4.   Analyze the economic consequences of the proposed rule and the principal
     regulatory alternatives. This section addresses issues about analyzing and
     potentially estimating the likely economic costs and benefits of the proposed
     (or final) rule. Multiple subsections address issues including:

        •   identifying and describing the most likely economic benefits and
            costs of the proposed rule and alternatives;

        •   quantifying (i.e., measuring) the potential impact of the rule to
            the extent feasible;

        •   monetizing (i.e., attaching a dollar value to) the potential
            quantified impact of the rule if practicable;

        •   ensuring that assumptions used are clearly stated and
            described;


Use of the Current Guidance on Economic Analysis in SEC Rulemakings         June 6, 2013
Report No. 518
                                        Page 51
                                                                             Appendix V


            •   identifying sources or methodology used to estimate costs and
                benefits (or both);

            •   clearly specifying those aspects of estimation that are uncertain;

            •   including both the economic impacts attributable to
                Congressional mandates and those resulting from an exercise of
                the Commission’s discretion for rulemakings directed from
                statutes;

            •   explaining why elements that are not quantified cannot be
                quantified;

            •   addressing significant ancillary economic consequences;

            •   addressing any contrary data or predictions;

            •   framing costs and benefits neutrally and consistently; and

            •   considering the effects on ECCF.

In addition to substantive requirements on how to conduct economic analysis in
SEC rulemakings, the Current Guidance also contains a procedural requirement
that the analysis should be incorporated throughout the rulemaking process, from
the beginning of policymaking to final decisions. Section B of the Current
Guidance covers the procedural requirement for “Enhanced integration of
economic analysis into the rulemaking process and rule releases.” Those
coordination and procedural requirements include: 85

           •    fully integrating RSFI economists at the pre-proposal stage of the
                rulemaking process;

           •    involving RSFI economists throughout the course of writing
                proposed or final rules;

           •    preparing an explanation of the policy and economic rationale for
                the regulation during the pre-proposal stage;

           •    preparing a high-level discussion, during the pre-proposal stage,
                of the likely elements of the economic analysis, including
                economic benefits and costs, which specifies any data needs
                and is circulated among the rulewriting team;



85
     Current Guidance, pgs. 15-17.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings           June 6, 2013
Report No. 518
                                           Page 52
                                                                         Appendix V


       •   preparing, for proposing releases, a substantially complete
           analysis of the most likely economic consequences (prepared by
           or in consultation with RSFI economists);

       •   discussing, in proposing releases, any existing studies or data
           that bear on the proposal;

       •   including, in proposing releases, specific requests for comment
           on the economic analysis or additional quantitative information
           (or both);

       •   formally circulating to the Commission for action RSFI’s
           concurrence on the economic analysis supporting the final draft
           of proposed rules;

       •   participating at meetings with commenters or other interested
           parties who specifically address comments on the economic
           analysis (participation by RSFI economists);

       •   including, in final rule releases, an economic analysis addressing
           any significant policy alternatives suggested by commenters that
           are not recommended for adoption;

       •   including, in final rule releases, an economic analysis addressing
           any other comments received about the economic effects of
           proposed rules and realistic alternative approaches;

       •   including, in final rule releases, an economic analysis addressing
           any new data provided by commenters;

       •   developing, for final rule releases, in close consultation with RSFI
           economists, a complete economic analysis of final rules
           addressing comments and alternatives from the public comment
           period; and

       •   formally circulating to the Commission for action RSFI’s
           concurrence on economic analysis supporting the final draft of
           final rules.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings        June 6, 2013
Report No. 518
                                        Page 53
                                                                                 Appendix VI


                       Substantive Rules Examined

Table 3: SEC Rules HDR Identified in Its Sample for Substantive Review
 Release    Release               Release Name               Sponsoring    Release        Statutory
 Number       Date                                            Divisions     Type          Authority
           June 20,      Listing Standards for
33-9330                                                     CF            Adopting       Dodd-Frank
           2012          Compensation Committees
                         Further Definition of “Swap,”
                         “Security-Based Swap,” and
           July 18,      “Security-Based Swap
33-9338                                                     TM            Adopting       Dodd-Frank
           2012          Agreement”; Mixed Swaps;
                         Security-Based Swap Agreement
                         Recordkeeping
                         Eliminating the Prohibition
           August 29,    Against General Solicitation and
33-9354                                                     CF            Proposing      JOBS Act
           2012          General Advertising in Rule 506
                         and Rule 144A Offerings
                         Further Definition of “Swap
                         Dealer,” “Security-Based Swap
           April 27,     Dealer,” “Major Swap
34-66868                                                    TM            Adopting       Dodd-Frank
           2012          Participant,” “Major Security-
                         Based Swap Participant” and
                         “Eligible Contract Participant”
                         Process for Submissions for
                         Review of Security-Based Swaps
                         for Mandatory Clearing and
           June 28,      Notice Filing Requirements for
34-67286                                                    TM            Adopting       Dodd-Frank
           2012          Clearing Agencies; Technical
                         Amendments to Rule 19b-4 and
                         Form 19b-4 Applicable to All
                         Self-Regulatory Organizations
                                                                                         1934
           July 18,
34-67457                 Consolidated Audit Trail           TM            Adopting       Exchange
           2012
                                                                                         Act
           August 22,
34-67716                 Conflict Minerals                  CF            Adopting       Dodd-Frank
           2012
           August 22,    Disclosure of Payments by
34-67717                                                    CF            Adopting       Dodd-Frank
           2012          Resource Extraction Issuers
                         Capital and Margin
           October 18,
34-68071                 Requirements for SBSDs and         TM            Proposing      Dodd-Frank
           2012
                         MSBSPs
           October 22,
34-68080                 Clearing Agency Standards          TM            Adopting       Dodd-Frank
           2012
                                                            Investment
                         Temporary Rule Regarding
           October 9,                                       Adviser
IA-3483                  Principal Trades with Certain                    Proposing      Dodd-Frank
           2012                                             Regulation
                         Advisory Clients
                                                            Office, IM
                         Rule 6A-5, Purchase of Certain
                         Debt Securities by Business and    Investment
           November      Industrial Development             Company
IC-30268                                                                  Adopting       Dodd-Frank
           19, 2012      Companies Relying on an            Regulation
                         Investment Company Act             Office, IM
                         Exemption
Source: HDR Generated.



Use of the Current Guidance on Economic Analysis in SEC Rulemakings                   June 6, 2013
Report No. 518
                                             Page 54
                                                                                              Appendix VII


           Requirements, Components, and Current
                    Guidance Reference
Table 4: Requirements and Components
 Requirement      Component       Requirement
     No.             No.                        Component
                                  The release “[c]learly identif[ies] the justification for the proposed
       1
                                  rule.” (p. 5)
                                                  Rule releases “include a discussion of the need for
                       1.1                        regulatory action and how the proposed rule will meet
                                                  that need.” (p. 5)
                                                  Where a cited justification for the rule is a statutory
                       1.2                        directive, includes a discussion of any justification
                                                                                                       86
                                                  cited by Congress for need for regulatory action.
                                  There is a defined baseline against which the proposed rule’s
       2
                                  economic impact is measured.
                                                  “The economic consequences of proposed rules . . .
                                                  should be measured against a baseline, which is the
                       2.1
                                                  best assessment of how the world would look in the
                                                  absence of the proposed action.” (p. 6)
                                                  “The baseline being used should be specified either at
                                                  the beginning of the economic analysis section or as
                                                  part of a general introduction to the economic issues
                                                  that will be considered throughout the release“ and
                       2.2
                                                  should “clearly describe the assumptions that
                                                  underlie the descriptions of the relevant baseline and
                                                  detail those aspects of the baseline specification that
                                                  are uncertain." (p. 7)
                                                  “Rulewriting staff should work with the RSFI
                       2.3                        economists to describe the state of the world in the
                                                  absence of the proposed rule.” (p. 7)
                                  The rule release “identif[ies] and discuss[es] reasonable alternatives
       3
                                  to the proposed rule.” (p. 8)
                                                  The release identifies and discusses “reasonable
                       3.1                        potential alternatives to the approach in the proposed
                                                  rule.” (p. 8)
                                                  Proposed rule releases “should also solicit public
                       3.2
                                                  comment” on the alternatives and their analysis. (p. 9)




86
   The Current Guidance states that, “[a]lthough [RSFI and OGC] conclude that the Commission is not
obligated to identify a justification for rulemaking beyond a Congressional mandate, there may be
circumstances in which it could be useful to do so. For example, where Congress has itself stated that the
mandate to engage in rulemaking is premised on a market failure or other compelling social need, the
rulemaking release may identify that justification (and attribute it to Congress) in its description of the
statutory mandate and explain how the rule (including any discretionary choices the Commission is making
in the rulemaking) responds to the market failure or other compelling need that Congress identified.” p. 6,
Footnote 19. While we recognize that this statement does not impose an additional requirement on SEC
rulemakings, it highlights an important difference from OMB Circular A-4’s requirements.
Use of the Current Guidance on Economic Analysis in SEC Rulemakings                               June 6, 2013
Report No. 518
                                                 Page 55
                                                                                       Appendix VII


 Requirement    Component      Requirement
     No.           No.                       Component

                               There is an analysis of “the economic consequences of the proposed
      4
                               rule and the principal regulatory alternatives.” (p. 9)
                                             “[R]ulewriting staff should work with the RSFI
                     4.1
                                             economists” to develop the economic analysis. (p. 9)
                                             The analysis identifies and describes “the most likely
                     4.2                     economic benefits and costs of the proposed rule and
                                             alternatives.” (p. 9)
                                             The analysis “quantif[ies] those expected benefits and
                     4.3
                                             costs to the extent possible.” (p. 9)
                                             The analysis “describe[s] the measurement approach
                                             used, include references to statistical and stakeholder
                     4.4
                                             data if available, and specif[ies] the timeframe
                                             analyzed.” (p. 13)
                                             The analysis “identif[ies] and discuss[es] uncertainties
                     4.5
                                             underlying the estimates of benefits and costs.” (p. 12)
                                             The analysis “[e]xplains why costs and benefits
                     4.6
                                             cannot be quantified.” (p. 13)
                                             The analysis “support[s] predictive judgments and
                     4.7                     clearly address[es] contrary data or predictions.”
                                             (p.14)
                                             The economic analysis “combine[s] the economic
                                             analysis considering costs and benefits with
                     4.8
                                             consideration of the effects on efficiency, competition,
                                             and capital formation” in the rule release.” (p. 14)
                               Economic Analysis is integrated into the rulemaking process and the
      5
                               rule release.
                                             Economic analysis is used to assist with key policy
                     5.1
                                             choices in the rulewriting process. (p. 14)
                                             The RSFI economists are involved in the rulemaking
                     5.2
                                             process in the “pre-proposal stage.” (p. 15)
                                             The RSFI economists are involved in the rulemaking
                     5.3
                                             process in the “proposing stage.” (p. 16)
                                             The RSFI economists are involved in the rulemaking
                     5.4
                                             process in the “comment period.” (p. 16)
                                             The RSFI economists are involved in the rulemaking
                     5.5
                                             process in the “adopting stage.” (p. 16)
Source: HDR Generated from the Current Guidance.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings                        June 6, 2013
Report No. 518
                                             Page 56
                                                                      Appendix VIII


                        Management Comments




Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                         Page 57
                                                                      Appendix VIII




Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                         Page 58
                                                                      Appendix VIII




Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                         Page 59
                                                                      Appendix VIII




Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                         Page 60
                                                                      Appendix VIII




Use of the Current Guidance on Economic Analysis in SEC Rulemakings   June 6, 2013
Report No. 518
                                         Page 61
                                                                      Appendix IX


      OIG’s Response to Management Comments

We are pleased that RSFI and OGC concurred with the six recommendations in
our report and are encouraged that the SEC will take the steps needed to fully
implement the recommendations. We believe that the full implementation of
these recommendations will serve to further improve the SEC’s use of the
Current Guidance in future rulemakings.

Based on our review of RSFI and OGC’s joint response to this report, we would
like to address certain statements in that response. RSFI and OGC state that
our report found “all” the rules HDR examined during its evaluation followed the
spirit and intent of the Current Guidance. While HDR found that the rules
examined largely followed the spirit and intent of the Current Guidance, it is
important to note HDR determined that certain rules did not fully follow some of
the Current Guidance’s requirements. For example, the report identifies
improvements that can be made related to defining the baseline condition used in
analysis, integration of ECCF in the baseline definition, and in discussing
limitations experienced when attempting to quantify economic impacts. HDR
found that, for the most part, the need for improvement is related to the
presentation of collected and developed information in the release texts and not
a failure to develop the required information.

Finally, the OIG agrees with management that our “components” approach was
useful in conducting this evaluation. However, the OIG disagrees with RSFI and
OGC’s statement that the use of “components” in this report implies use of the
Current Guidance in a “mechanistic or inflexible way” or that it compromises
RSFI and OGC’s perceived need for flexibility in rulemaking economic analysis.
HDR’s enumeration of assessable components did not in any way change the
meaning of the Current Guidance. In fact, the components were derived directly
from language in the Current Guidance.

Moreover, we have not recommended in our report that RSFI or OGC adopt a
“components” approach to applying the Current Guidance. As noted in
Recommendations 1 and 3, we believe that sound management controls can be
helpful to the Commission in ensuring the Current Guidance is fully followed for
each rulemaking, while also allowing for flexibility.




Use of the Current Guidance on Economic Analysis in SEC Rulemakings    June 6, 2013
Report No. 518
                                        Page 62
                    Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General for Audits (Audit Request or Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




                SEC OIG Hotline
      To report fraud, waste, abuse, and
      mismanagement at the SEC, contact the Office of
      Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      http://www.sec-oig.gov/
